<html>
<title> - LOCAL PERSPECTIVES ON THE NO CHILD LEFT BEHIND ACT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                       LOCAL PERSPECTIVES ON THE 
                        NO CHILD LEFT BEHIND ACT 

=======================================================================

                             FIELD HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

               HEARING HELD IN FLINT, MI, APRIL 12, 2007

                               __________

                           Serial No. 110-19

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

34-417 PDF                      WASHINGTON : 2008

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





















































                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            Dean Heller, Nevada
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                   DALE E. KILDEE, Michigan, Chairman

Robert C. ``Bobby'' Scott, Virginia  Michael N. Castle, Delaware,
Dennis J. Kucinich, Ohio               Ranking Minority Member
Susan A. Davis, California           Peter Hoekstra, Michigan
Danny K. Davis, Illinois             Mark E. Souder, Indiana
Raul M. Grijalva, Arizona            Vernon J. Ehlers, Michigan
Donald M. Payne, New Jersey          Judy Biggert, Illinois
Rush D. Holt, New Jersey             Luis G. Fortuno, Puerto Rico
Linda T. Sanchez, California         Rob Bishop, Utah
John P. Sarbanes, Maryland           Todd Russell Platts, Pennsylvania
Joe Sestak, Pennsylvania             Ric Keller, Florida
David Loebsack, Iowa                 Joe Wilson, South Carolina
Mazie Hirono, Hawaii                 Charles W. Boustany, Jr., 
Phil Hare, Illinois                      Louisiana
Lynn C. Woolsey, California          John R. ``Randy'' Kuhl, Jr., New 
Ruben Hinojosa, Texas                    York
                                     Dean Heller, Nevada




































                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 12, 2007...................................     1

Statement of Members:
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois..........................................     3
    Kildee, Hon. Dale E., Chairman, Subcommittee on Early 
      Childhood, Elementary and Secondary Education..............     1
        Additional submissions for the record:
            Decker, Curtis, executive director, the National 
              Disability Rights Network..........................    45
            Doneson, Susan, teacher, program supervisor, Meridian 
              High School........................................    50
            Lose, Dr. Mary K., Oakland University................    51
            Schmidt, Linda, policy adviser, Michigan Department 
              of Human Services..................................    53
            Shanahan, Carol, teacher, Vern Van Y Elementary 
              School.............................................    54
            Turner, Vickie, instructor of future educators, 
              Ferris State University............................    55
            American Library Association.........................    57
            Jordan, Paul G., LMSW, board member, City of Flint 
              School District....................................    62
            ``Position Paper on Modified Curriculum, West 
              Michigan Alternative High Schools''................    64
            ``Position Paper on Graduation Rate, West Michigan 
              Alternative High Schools''.........................    67

Statement of Witnesses:
    Burroughs, Steve, president, United Teachers of Flint, on 
      behalf of the National Education Associatio................    12
        Prepared statement of....................................    15
    Debardelaben, Andrea, parent.................................    19
        Prepared statement of....................................    21
    Russell, Jan D., assistant superintendent, Genesee 
      Intermediate School District...............................    10
        Prepared statement of....................................    11
    Solis, David, director of State, Federal and local programs, 
      on behalf of Dr. Walter Milton, Jr., superintendent, Flint 
      Community Schools..........................................     6
        Prepared statement of Dr. Milton.........................     8
    Tilley, Donald, social studies department chair, Central High 
      School.....................................................    23
        Prepared statement of....................................    25


                       LOCAL PERSPECTIVES ON THE
                        NO CHILD LEFT BEHIND ACT

                              ----------                              


                        Thursday, April 12, 2007

                     U.S. House of Representatives

                    Subcommittee on Early Childhood,

                   Elementary and Secondary Education

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 11:02 a.m., at 
the Sarvis Conference Center, 1231 East Kearsley Street, Flint, 
Michigan, Hon. Dale Kildee [chairman of the subcommittee] 
Presiding.
    Present: Representatives Kildee and Davis of Illinois.
    Staff Present: Julius Lloyd Horwich, Policy Advisor for the 
Subcommittee on Early Childhood, Elementary and Secondary 
Education.
    Mr. Kildee. A quorum being present, the hearing of the 
subcommittee will come to order.
    Pursuant to Committee Rule 12(a) any member may submit an 
opening statement in writing which will be made part of the 
permanent record.
    I now recognize myself for an opening statement.
    I'm pleased to welcome my fellow subcommittee member, Mr. 
Danny Davis from Chicago, welcome the public and our witnesses 
to Flint and to this hearing on local perspectives on the No 
Child Left Behind Act.
    In February this subcommittee held its first hearing of the 
new Congress. I realized then how meaningful it was for me to 
hold a gavel again after twelve years. It is nice. And it's 
even more meaningful for me today to hold that gavel here in 
Flint, Michigan, where I was born, raised and taught just 
across the campus here at Flint Central High School.
    As chairman of this subcommittee one of my top priorities 
is to work with my colleagues, Democrats and Republicans, and 
educators in Michigan and around the country to improve and 
reauthorize the No Child Left Behind Act.
    We in Michigan know better than anyone else that our 
success in the 21st century economy will be directly tied to 
our ability to continue to produce a high quality trained and 
educated work force. And that ability is, of course, directly 
tied to our ability to provide every child with a world class 
education.
    Since 2002 Congress and the President have underfunded No 
Child Left Behind by $56 billion. Last year alone fully funding 
No Child Left Behind would have meant an additional $331 
million for Michigan schools.
    Now, $331 million in that one year alone would have made a 
tremendous difference in how we could implement No Child Left 
Behind. It has become really an underfunded mandate.
    There are other things in the bill that we'll work on too, 
but we've got to work hard with the appropriators to make sure 
that you have the resources to carry out whatever mandates are 
in No Child Left Behind.
    As a matter of fact, the President's proposed budget for 
fiscal 2008, the one we're working on right now, would bring 
that total up to $71 billion underfunding. However, I'm hopeful 
that with the changes in Washington this year we'll start to do 
better.
    But funding is only one part of improving No Child Left 
Behind. We need to understand the impact that No Child Left 
Behind has on academic standards and how it can support 
standards that will help our students compete with students 
around the world. We need to know about the quality of tests 
under No Child Left Behind--That's very important, the 
quality--including those tests for limited English proficient 
students and students with disabilities, and how No Child Left 
Behind can support educators' interests in high quality tests 
that help teachers diagnose students' strengths and weaknesses.
    We'll look at the indicators that determine Adequate Yearly 
Progress and at different models such as growth models. And I 
invite any of you to discuss growth models. We'll hear your 
testimony first, and we'll be asking questions and we can do a 
little freewheeling at that point.
    And tell us what we need to know about our schools and how 
growth models maybe can help those schools get credit for the 
progress they make.
    And with regards to the effects of not making AYP, 
including public school choice and tutoring, we will ask how 
the law can best help each student and also help schools and 
school systems implement long-term systemic reforms.
    Because basically the structure of No Child Left Behind is 
standards, tests to those standards, adequate yearly progress, 
and then effects, consequences, whatever you might want to call 
them. And those four elements will probably remain in place, 
those four elements, standards, tests, AYP and the consequences 
of not meeting AYP.
    Some use harsher terms than consequences. I very often use 
the neutral term effects, but we'll ask you to comment on that 
also.
    So I look forward to hearing from our witnesses. We have a 
wide range of local perspectives on how No Child has worked and 
what we can do to make it work better. And I'm confident that 
your testimony will play an important role in the committee's 
understanding of how the law has impacted not only Flint, Bay 
City, Saginaw, Genesee County, Saginaw County, Bay County, 
Tuscola County, but also places like them all around the 
country.
    So I look forward to working with Mr. Davis and with my 
ranking member, Governor Castle, who is the ranking republican 
member of this subcommittee, former governor of Delaware, and a 
person who approaches this, as Mr. Davis will tell you, without 
any partisanship. We are blessed in our committee to have 
Governor Castle as the ranking republican member. And also we 
have Mr. McKeon from California as the ranking member of the 
full committee.
    So I thank all of you for being here. I'm going to call 
upon my colleague Danny Davis.
    Danny was chosen by the people of the seventh congressional 
district of Illinois to serve them in 1996. Prior to becoming a 
member of Congress he has a rich background. He served on the 
Cook County board of commissioners for six years. Previously he 
served for eleven years as a member of the Chicago City Council 
as alderman for the 29th ward. And you know if you can survive 
Chicago politics you can survive anything.
    Before seeking public office Congressman Davis has had 
productive careers as an educator, community organizer, health 
planner, administrator and civil rights advocate. He's received 
hundreds of awards from around the country. He's traveled 
around the world. He brings to this committee a very rich 
background. It's my pleasure to yield to Mr. Davis for his 
opening remarks.
    Mr. Davis. Thank you very much.
    Thank you very much, Mr. Chairman. And let me first of all 
indicate how pleased and delighted that I am to be in Flint, 
Michigan, a city with a long history, a city that represents 
much of the core of what America is like. It represents much of 
what America has been, but also much of the promise of what 
America is to become. And so I'm pleased to be here to join 
with you.
    I want to commend you for the tremendous leadership that 
you have provided as a member of Congress as you continue to 
serve as the second ranking democrat on the full education 
committee, working with our chairman George Miller from 
California, and also for the stellar performance that you have 
provided as chairman of this subcommittee. I think that all of 
America is indeed fortunate that we have a Dale Kildee in the 
United States House of Representatives, and I thank you.
    Being here for me is very interesting. I come to my notions 
about education from many factors and different vantage points. 
First of all, I grew up in rural Arkansas, went to a one-room 
school where one teacher, Ms. King, taught eight grades plus 
the little primer and the big primer all at the same time.
    Matter of fact, a school year for us was five months. I 
never went to school more than five months during the time that 
I was growing up as a youngster. We attended school January, 
February, March, April. School ended the first week of May, and 
then we attended again from about the middle of July until the 
middle of August.
    But people in our communities and our neighborhoods valued 
education. As a matter of fact, my father, who finished the 
fourth grade, used to tell us that the real value of education 
was that the more you learn the more you realize how little you 
know.
    And of course we were taught to read, and we read many 
biographies. Abraham Lincoln supposedly said at one time that 
education makes a man easy to lead but difficult to drive; easy 
to govern, but impossible to enslave.
    Of course Malcolm X had something that he said in terms of 
education is our passport to the future, for our tomorrow 
belongs to those who prepare today.
    One of my favorites, though, about education is something 
that Harriet Tubman was supposed to have said, and that is 
``Education is a good thing. Some folks say that it makes fools 
out of people.'' But then she turned around and said, ``But I 
know more fools who don't have any. And if you're going to be a 
fool, it's best to be an educated fool.''
    And so when we approach No Child Left Behind, when we 
approach theories and practices, when we seek solutions and 
improvements I think about the fact that finding solutions to 
problems we face in education, meeting the needs and facing the 
challenges is sort of like a person getting religion. I've 
never known anybody to have enough. Everybody that considers 
themself to be seriously religious is always trying to get a 
little bit closer. You know, we look at some of the songs that 
people sing, ``Just a Closer Walk With Thee.''
    And so when we look for solutions to finding ways to help 
young people to learn, to help school districts to be more 
effective, to help teachers whom I consider to be the salt of 
the earth, pillars of the universe, individuals who give of 
themselves for the benefit of others, as we put all of these 
things together a big question becomes are we really willing to 
pay the price that is necessary to achieve the goals and 
objectives that we seek?
    Frederick Douglass, whom I admire for the thought of 
telling the truth a great deal, suggested that there was one 
thing he knew if he didn't know anything else, and that is that 
in this world we may not get everything that we pay for but we 
most certainly will pay for everything that we get. And if 
we're going to pay to have the kind of education system, if 
we're going to pay to have the kind of professionalism, if 
we're going to have the kind of administrators, the kind of 
checkpoints and checkmarks that the No Child Left Behind 
legislation suggests that we ought to have then we're going to 
have to also pay in money.
    I don't believe that money solves everything, and I don't 
believe that everything is solved, but I do believe that in 
order to have resources balanced you must realize what it is 
that you want and then be prepared to pay to make it happen.
    I commend all of our witnesses who have come, and I know 
that we're going to hear some interesting and exciting 
concepts. But I also believe that at the end of the day the 
real way that we have the best education systems is to make 
sure that there is something that I call serious involvement 
and participation of local residents, serious involvement of 
parents, of people in the community.
    If a community determines that education is valuable to it 
and to its children, I guarantee you there will be achievement 
no matter what the socioeconomic status.
    And so again, Mr. Chairman, I thank you for holding this 
hearing. It's my pleasure to be here with you, commend you for 
what you have done over the past thirty years or so that you've 
been a member of Congress, and of course if the people of Flint 
and the surrounding area is willing then maybe you'll spend 
thirty more.
    Thank you so very much.
    Mr. Kildee. Thank you very much, Danny.
    I think you understand now why the people of the seventh 
district of Illinois keep sending Mr. Davis back to Congress. 
Obviously you saw his intellect, and also I pray why can't Dale 
Kildee have a voice like Danny Davis?
    We have five witnesses here today. There are some I know 
who want to submit testimony for the record. And if you do want 
to submit testimony, Lloyd Horwich is the counsel for this 
subcommittee. Contact him and we will make sure that that 
becomes part of the official record. We'll leave the record 
open for seven days for that purpose, as we generally do for 
members of Congress, too.
    I would like to introduce the very distinguished panel of 
witnesses with us here today.
    It is particularly a pleasure to introduce the first 
witness, David Solis. He's the Director of State, Federal and 
local programs for the Flint Community Schools and a former 
teacher. In 2005 he received the Educator Award from the 
Michigan Association of State and Federal Program Specialists. 
And in 1985 and '86 David Solis worked for me in Washington, 
D.C., and left Washington in a blaze of glory, having helped 
rewrite the Elementary and Secondary Education Act, played a 
major role in that rewrite, and particularly great emphasis on 
updating bilingual education, made some profound changes in 
bilingual education. Then he came back to Flint here and worked 
for me in Flint, and then returned to his first love, 
education, and has his present position today.
    Jan Russell is Assistant Superintendent for Special 
Services for the Genesee Intermediate School District. He is 
responsible for programs and services for more than 11,000 
students with disabilities. GISD's special services has been 
recognized for its innovative programs for its students with 
severe disabilities and the use of technology in special 
education.
    And Steve Burroughs is President of the United Teachers of 
Flint and taught in the Flint city schools for fifteen years.
    Andrea Debardelaben is a day-care provider and has been a 
member of the Michigan PTA for eight years. She's a parent of 
two sons who attend Longfellow Elementary School in Saginaw and 
a daughter who attends the Saginaw Arts and Science Academy, 
good schools in my congressional district.
    And, Don Tilley is Chair of the Social Studies Department 
and a social studies teacher at Bay City Central High School. 
In 2001 he was named the Saginaw Valley High School Association 
Teacher of the Year. In 2006 he was elected a Bay County 
commissioner in the ninth district in Bay County. He and I had 
the pleasure of knocking on doors together up in Bay County.
    For those of you who have not testified before the 
subcommittee, I'll explain our lighting system and the five-
minute rule.
    Everyone, including members, is limited to five minutes of 
presentation or questioning, and the green light will be 
illuminated when you begin to speak, and when you see the 
yellow light it means that you have one minute remaining, and 
when you see the red light it means that your time has expired 
and you need to conclude your testimony. There's no ejection 
seat, however. We'll let you finish your paragraph or your 
thought.
    But please be certain as you testify to turn on and speak 
into the microphone in front of you and turn it off when you 
have finished. Our court reporter has to be able to hear every 
word so we have a correct record.
    We'll now hear from our first witness, Mr. David Solis.

STATEMENT OF DAVID SOLIS, DIRECTOR OF STATE, FEDERAL AND LOCAL 
               PROGRAMS, FLINT COMMUNITY SCHOOLS

    Mr. Solis. Chairman Kildee, Congressman Davis, it is indeed 
an honor and a pleasure to be here to be able to testify before 
this subcommittee.
    I'm here on behalf of our superintendent, Dr. Milton.
    Mr. Kildee. Pull the mic a little closer to you.
    Mr. Solis. Flint is the birthplace of General Motors, the 
home of Charles Stewart Mott Foundation and the birthplace of 
the Community Schools Concept.
    The school district is an urban school district with a 
dwindling student population. At its peak the district had 
approximately 47,000 students. Due to economic factors, 
particularly the downsizing of the automotive industry, 
thousands of jobs have been lost. Consequently, the student 
population has declined to approximately 16,500 students and 
the city's population is expected to decline from the last 
census count of 124,943 people.
    The school district is currently comprised of 45 schools 
that include 25 community elementary schools, four foundation, 
success and commencement academies and six specialty schools. 
Some 70 percent of the students receive free or reduced price 
lunches and milk. Thirty-eight of the forty-five schools in the 
district are above 35 percent low income and qualify for Title 
I services, and 35 have a poverty level equal to or greater 
than 50 percent. And as we know, the purpose of Title I is to 
improve the academic achievement of the disadvantaged, and we 
have a large population of disadvantaged students.
    How has NCLB supported our reform effort here? NCLB funding 
has played an integral part in the Flint Community Schools' 
Academic Reform Model.
    The reform model incorporates the six essential components 
for highly effective learning communities. First, valid and 
reliable assessments. Second, scientifically based curriculum 
and instruction. Third, sustained professional development. 
Fourth, capable leadership. Fifth, responsible fiscal 
management. And finally, parent involvement and community 
relations.
    A significant amount of the resources provided under NCLB 
have been utilized for the implementation of the six essential 
components. Ongoing assessments of our students have made it 
available with these funds. The assessments provide teachers 
with data to drive instruction based on the academic needs of 
our children.
    NCLB funds have assisted with the purchase of 
scientifically based curriculum materials for supplemental 
intervention services for students performing below grade 
level. Sustained professional development has been made 
available to principals, teachers and paraprofessionals as well 
as other staff. In addition, a leadership institute with the 
University of Michigan is currently being implemented for our 
administrative staff.
    NCLB funds continue to support parent involvement and 
assist with Title I parent advisory councils in all our Title I 
buildings. And they're very active councils.
    Also, NCLB has provided for the establishment of our 
Mentors Committed to Excellence program.
    NCLB has also provided for limited, and let me repeat that, 
limited opportunities for secondary schools as indicated. And 
as Chairman Kildee had mentioned, we are currently underfunded.
    These are some of the limited high school reform 
initiatives that we have embarked upon: Schools within schools. 
Ninth grade academies. Increased focus on literacy. Adding 
rigor and relevance to the academic program. Increasing 
student-teacher and student-counselor relationships. Increased 
focus on differentiated learning, including gender based 
programs, gifted and talented programs.
    Once again, these resources are limited for our secondary 
reform initiatives.
    Also, how has the funding from NCLB impacted our district? 
Well, it has had a significant impact. For example, Title I 
Part A, we had $15.5 million through the funds that are driven 
to this district under Title I Part A.
    With these funds we have reading and math intervention 
teachers for our Push-in, Pull Out, Whole-Part-Whole academic 
strategies.
    It also provides for our Tier 1 coaches for the four core 
subjects. And the coaches are the ones that review all the 
materials to ensure that they will address the academic needs 
of children that are performing below grade level. Once again, 
they address the areas of ELA, mathematics, science and social 
studies.
    We have parent facilitators in most of our buildings. Once 
again, it's a function of the budget. And as we drive the funds 
to the buildings, buildings have to make tough decisions on 
what they can fund through the Title I funds. Most of our 
buildings have Title I parent facilitators that do provide 
support for our parents, and each one conducts a monthly Title 
I parent involvement meeting.
    We also have Title I Parent Advisory Councils, not only at 
the building level but at the district level.
    We have behavioral specialists who work with children so 
that we don't suspend or expel children. If they are having 
difficulty in terms of behavior we have behavioral specialists 
to work with them in terms of working with their behavior so 
they are not out of school.
    We also have computer technologists that provide the 
integration of technology into our curriculum. Also they 
provide support for our children and teachers in terms of any 
computer-based programs that we have implemented. It provides 
for intervention, supplies and materials.
    Extended day learning opportunities, extended year learning 
opportunities--and I'm speeding it up because I know my time is 
up, but these are our after school programs, our summer school 
programs, our Mentors Committed to Excellence and professional 
development.
    Now, I'm just going to briefly go through these other ones. 
Education of migratory children provides for paraprofessionals, 
migrant recruiters, parent coordinators for health and social 
needs.
    Title II is a very significant funding source for us here. 
It provides for Tier 2 coaches that provide academic 
instructional models within the classroom to provide coaching 
for other teachers that are there to assist our children.
    Title III, which is our limited English proficient funds, 
we have a parent coordinator, translators and 
paraprofessionals. We have 600 students that are LEP. Once 
again, there's a need for additional funds for Title V, 
innovative programs, and those are to fund our IB program, our 
international baccalaureate program.
    So at this point I will conclude, because I know my time is 
up, but there are some challenges we face. Most of them deal 
with the appropriate level of funding to fully implement all 
these reform models that will have a dramatic impact on our 
students.
    Thank you very much.
    [The statement of Mr. Milton follows:]

             Prepared Statement of Dr. Walter Milton, Jr.,
                Superintendent, Flint Community Schools

    Chairman Kildee and Members of the Subcommittee, thank you for the 
opportunity to testify this morning.
Introduction
    Flint is the birthplace of General Motors, the home of the Charles 
Stewart Mott Foundation, and the birthplace of the Community Schools 
Concept. The school district is an urban school district with a 
dwindling student population. At its peek, the district had 
approximately 47,000 students. Due to economic factors, particularly 
the downsizing of the automotive industry, thousands of jobs have been 
lost. Consequently, the student population has declined to 
approximately 16,500 pupils, and the city's population is expected to 
decline from the last census count of 124,943 people.
    The school district is currently comprised of 45 schools that 
include 25 community elementary schools, four foundation, success and 
commencement academies and six specialty schools. Some 70% of the 
students receive free price lunches and milk. Thirty-eight of the 45 
schools in the district are above 35% low income and qualify for Title 
I services, and, 35 have a poverty level equal to or greater than 50%. 
The purpose of Title I is to improve the academic achievement of the 
disadvantaged.
NCLB and Flint Community Schools' Reform
    NCLB funding has played an integral part in the Flint Community 
Schools' Academic Reform Model. The reform model incorporates the six 
essential components for highly effective learning communities:
    1. Valid and Reliable Assessments
    2. Scientifically Based Researched Curriculum and Instruction
    3. Sustained Professional Development
    4. Capable Leadership
    5. Responsible Fiscal Management
    6. Parent Involvement and Community Relations
    A significant amount of the resources provided under NCLB have been 
utilized for the implementation of the essential components. Ongoing 
assessments of our students have been made available with these funds. 
The assessments provide teachers with data to drive instruction based 
on the academic needs of the children.
    NCLB funds have assisted with the purchase of scientifically based 
curriculum materials for supplemental intervention services for 
students performing below grade level. Sustained professional 
development has been made available to principals, teachers and 
paraprofessionals as well as other staff. In addition, a Leadership 
Institute with the University of Michigan is currently being 
implemented for our administrative staff.
    NCLB funds continue to support parent involvement and assisted with 
Title I parent advisory councils in all our Title I buildings. Also, 
NCLB funds have provided for the establishment of our ``Mentors 
Committed to Excellence'' program.
    NCLB has also provided for limited opportunities for secondary 
schools as indicated below.
    High School Reform Initiatives:
    <bullet> Schools within schools
    <bullet> Ninth Grade Academies
    <bullet> Increased focus on literacy
    <bullet> Adding rigor and relevance to the academic program
    <bullet> Increasing student-teacher and student-counselor 
relationships
    <bullet> Increased focus on differentiating learning, including:
    <bullet> gender-based programs
    <bullet> gifted and talented programs
NCLB Support to Flint Community Schools
    The following is a list of staff and programs funded with NCLB.
            Title I, Part A--Improving the Academic Achievement of the 
                    Disadvantaged
    <bullet> Reading and mathematics intervention teachers (Push-in, 
Pull Out, Whole-Part-Whole)
    <bullet> Tier 1 Coaches--ELA, Mathematics, Science and Social 
Studies
    <bullet> Parent Facilitators
    <bullet> Title I Parent Advisory Councils
    <bullet> Behavioral Specialists
    <bullet> Computer Technologist
    <bullet> Intervention Supplies and Materials
    <bullet> Extended Day Learning Opportunities (After School Academic 
Program)
    <bullet> Extended Year Learning Opportunities (Summer School 
Program)
    <bullet> Mentors Committed to Excellence
    <bullet> Professional Development
            Title I Part C--Education of Migratory Children
    <bullet> Paraprofessionals
    <bullet> Migrant Recruiter
    <bullet> Parent Coordinator--Health and social needs
            Title II, Part A--Preparing, Training, and Recruiting 
                    Highly Qualified Teachers and Principals
    <bullet> Tier 2 Coaches--Elementary and Secondary Schools
    <bullet> Professional Development in the four core academic subject 
areas
            Title III--Language Instruction for Limited English 
                    Proficient Students
    <bullet> Parent Coordinator
    <bullet> Translator
    <bullet> Paraprofessionals
            Title V, Part A--Innovative Programs
    <bullet> Funds for application for the International Baccalaureate 
Program
    <bullet> Supplies and materials for International Baccalaureate 
Program
            Title VII--Indian, Native Hawaiian, and Alaska Native 
                    Education
NCLB Challenges
    <bullet> Funding for additional coaches, intervention teachers
    <bullet> Funding to attract Highly Qualified Staff to urban areas
    <bullet> Demonstrated student achievement of 100 % proficient 
including special education students
    <bullet> SES and Choice set-aside
    <bullet> 15% carryover limit
    <bullet> SES alignment with school reform
    <bullet> Cuts in Title IID--Technology
    <bullet> Cuts in Title V--Innovative Program Funds (IB program)
High School Reform Barriers to Success
    <bullet> Lack of financial resources
    <bullet> Lack of human resources including
    <bullet> Counselors
    <bullet> Coaches
    <bullet> Intervention Teachers
    <bullet> Math and Science teachers
    <bullet> Career Tech teachers
                                 ______
                                 
    Mr. Kildee. Thank you, Mr. Solis. And all your testimony, 
and some may have even more extensive than what they will be 
reading, all of your testimony will be included in its entirety 
in the record.
    So I call upon Mr. Russell.

STATEMENT OF JAN D. RUSSELL, ASSISTANT SUPERINTENDENT, GENESEE 
                  INTERMEDIATE SCHOOL DISTRICT

    Mr. Russell. I want to thank you, Chairman Kildee and 
members of the subcommittee, for this opportunity to provide 
this testimony as you engage in the process of reauthorizing No 
Child Left Behind. And we also appreciate your decision to host 
this hearing in our community as well.
    As indicated, my name is Jan Russell, assistant 
superintendent, Genesee Intermediate School District.
    GISD is a regional education service agency serving the 21 
public school districts and 10 public school academies in 
Genesee County. Its annual budget is over $151 million, and the 
organization employs over a thousand staff members.
    Genesee County, of course, as you know, is located in lower 
southeast Michigan and is the fifth most populous county in 
Michigan with a student population over 85,000.
    And, of course, Genesee County has urban, suburban and 
rural populations, adding to the diversity of cultures and 
accessibility of services in the county. Of course, as you 
know, Flint with 29 percent of the county's total population is 
the urban and geographic center of the county and the fourth 
largest city in the state.
    In GISD's Department of Special Services, we coordinate 
special education for over 11,000 students with disabilities 
who reside in our local districts. We provide consultation, 
physical and occupational therapy, school social work, student 
evaluations, and many other services on behalf of our 
districts.
    We provide classroom programs to nearly 1,000 students in 
three center facilities. Two of our centers, Elmer Knopf 
Learning Center and Marion Crouse Instructional Center house 
programs for students with autism spectrum disorder, cognitive 
impairment and students with multiple impairments.
    Our local districts refer these students because they, and, 
most importantly, their parents, believe that an appropriate 
education can only be provided in a special school, a special 
school that is specifically designed to meet the individual 
needs of each student.
    These needs are addressed through individualized education 
programs, or IEPs, that focus on functional skills, such as 
personal care and independence, feeding, basic communication of 
wants and needs, management of unstructured time and the full 
access to the community.
    Our services are provided by highly skilled teachers and 
support staff who also address other student needs such as 
toileting, seizures, mobility, communication, assistive 
technology, medical care for personal equipment, such as 
tracheal tubes and respiratory or breathing apparatus, and a 
whole host of other special services that I would maintain most 
citizens don't even realize that schools have to provide in 
schools.
    All of our students take the alternate assessment called 
MiAccess, which is Michigan's assessment instrument for 
students with severe disabilities. None of our students are in 
a course of study that leads to a high school diploma. 
Furthermore, our individualized education programs are 
developed and approved by parents and teachers, those closest 
to our students.
    The Individuals with Disabilities Education Improvement Act 
of 2004, as you know, requires many things of our school 
districts. The heart and soul of IDEA is that we must provide a 
free and appropriate public education to each individual 
student with a disability in the least restrictive environment, 
generally up to the age of twenty-one, even though in Michigan 
we require that those services be provided up to the age of 
twenty-six here.
    IDEA also requires that we have a full continuum of 
placements and settings for our students, including special 
schools like Marion Crouse and Elmer Knopf.
    Now, the important issue that I want to bring to your 
attention today is that No Child Left Behind requires that 
every district and school building must make Adequate Yearly 
Progress, or AYP, in meeting the goal of 100 percent 
proficiency on state assessments. This is measured by 
standardized tests that reflect a universal standard for all 
students.
    There are no such universal academic standards for students 
with severe disabilities. In contrast, we are accountable to 
our parents for the IEPs we develop together for our special 
students. Therefore, we must determine our success on the 
achievements of each student based on his or her unique 
educational plan.
    While NCLB as implemented allows a percentage of students 
with disabilities to be measured against alternate or modified 
standards, we do not believe that the law contemplates school 
districts such as GISD in which virtually all of the students 
for whom we are accountable, those in our Crouse and Knopf 
centers, fit under the definition of students who should be 
measured against alternate or modified assessments.
    So in conclusion, we believe that the law should recognize 
unique districts such as ours with an accountability system 
that allows for the fact that we do not fit the standard mold, 
and also it should incorporate our students' IEPs and 
measurements of progress based on each individual student's 
goals.
    We find it neither accurate nor appropriate that we might 
be designated as not making AYP because of an accountability 
system that does not match what our students and their families 
need.
    So thank you again for this opportunity, and of course at 
the end of testimony I'd be glad to answer any questions.
    [The statement of Mr. Russell follows:]

    Prepared Statement of Jan D. Russell, Assistant Superintendent,
                  Genesee Intermediate School District

    I want to thank you Chairman Kildee and members of the subcommittee 
for this opportunity to provide this testimony as you engage in the 
process of reauthorizing the Elementary and Secondary Education Act, 
known as No Child Left Behind. We appreciate your decision to host this 
hearing in our community.
    My name is Jan Russell, Assistant Superintendent, Genesee 
Intermediate School District.
    Genesee Intermediate School District (GISD) is a Regional 
Educational Service Agency serving the 21 public school districts and 
10 public school academies in Genesee County. Its annual budget is over 
$151 Million and the organization employs over 1,000 staff members. 
Genesee County is located in lower southeast Michigan and is the fifth 
most populous county in Michigan. Its student population is 85,000.
    Genesee County has urban, suburban and rural populations, adding to 
the diversity of cultures and accessibility to services in the county. 
Flint, with 29% of the county's total population, is the urban and 
geographic center of the county and the fourth largest city in the 
state.
    In GISD's Department of Special Services we coordinate special 
education for over 11,000 students with disabilities who reside in our 
local school districts. We provide consultation, physical and 
occupational therapy, school social work services, student evaluations, 
and many other services on behalf of our districts. We provide 
classroom programs to nearly 1,000 students in three center facilities. 
Two of our centers, Elmer Knopf Learning Center and Marion D. Crouse 
Instructional Center, house programs for students with Autism Spectrum 
Disorder, Cognitive Impairment, and students with Multiple Impairments. 
Our local districts refer these students because they, and most 
importantly, their parents, believe that an appropriate education can 
only be provided in a special school: a special school that is 
specifically designed to meet the individual needs of each student.
    These needs are addressed through Individualized Education Programs 
(IEPs) that focus on functional skills such as personal care and 
independence, feeding, basic communication of wants and needs, 
management of unstructured time, and fully accessing their community. 
Our services are provided by highly skilled teachers and support staff 
who also address other student needs such as toileting, seizures, 
mobility, communication, assistive technology, medical care for 
personal equipment such as tracheal tubes and respiratory or breathing 
apparatus, and a whole host of other very special services that most 
citizens would not believe are required to be provided in schools. All 
of our students take the alternate assessment, called MiAccess, which 
is Michigan's assessment instrument for students with severe 
disabilities. None of our students are in a course of study that leads 
to a high school diploma. Furthermore, our individualized educational 
programs are developed and approved by parents and teachers; those 
closest to our students.
    The Individuals with Disabilities Education Improvement Act of 2004 
requires many things of school districts. The heart and soul of IDEA is 
that we must provide a free and appropriate public education to each 
individual student with a disability in the least restrictive 
environment, generally up to the age of twenty-one, while Michigan 
requires that services be provided up to the age of twenty-six. IDEA 
also requires that we have a full continuum of placements and settings 
for our students, including special schools like Marion Crouse and 
Elmer Knopf.
    The important issue that I want to bring to your attention today is 
that No Child Left Behind requires that every district and school 
building must make adequate yearly progress (AYP) in meeting the goal 
of 100% proficiency on state assessments. This is measured by 
standardized tests that reflect a universal standard for all students. 
There are no such universal academic standards for students with severe 
disabilities. In contrast, we are accountable to our parents for the 
individualized programs we develop together for our special students. 
Therefore we must determine our success on the achievements of each 
student based on his/her unique educational plan. While NCLB as 
implemented allows a percentage of students with disabilities to be 
measured against alternate or modified standards, we do not believe 
that the law contemplates school districts such as GISD, in which 
virtually all of the students for whom we are held accountable--those 
in our Crouse and Knopf Centers--fit under the definition of students 
who should be measured against alternate or modified assessments.
    In conclusion, we believe that the law should recognize unique 
districts such as ours with an accountability system that allows for 
the fact that we do not fit the standard mold and incorporates our 
students' IEPs and measurements of progress based on each student's 
goals. We find it neither accurate nor appropriate that we might be 
designated as not making AYP because of an accountability system that 
doesn't match what our students and their families need.
    Thank you once again for this opportunity and would be glad to 
answer any questions.
                                 ______
                                 
    Mr. Kildee. Thank you, Mr. Russell.
    Mr. Burroughs.

            STATEMENT OF STEVE BURROUGHS, PRESIDENT,
                    UNITED TEACHERS OF FLINT

    Mr. Burroughs. Chairman Kildee and Representative Davis, I 
thank you for the opportunity to speak to the subcommittee 
today on these very important issues. I am honored to be able 
to represent the United Teachers of Flint, the Michigan 
Education Association and the 3.2 million members of the 
National Education Association.
    I'm a proud product of Flint Community Schools. I taught 
elementary school for fifteen years in the Flint Public 
Schools, and I currently serve for the last six years as 
president of the United Teachers of Flint. My daughter also 
went to the Flint Public Schools, and I hope my five-year-old 
grandson will have an opportunity to go to the Flint Community 
Schools.
    Let me give you a picture of the challenges facing the 
Flint Community Schools as they work to provide students with a 
great public education they so richly deserve.
    As Mr. Solis mentioned, we have so many children in need in 
this community and many of them qualify for free lunch.
    This district is financially strapped and is currently 
running a $13 million deficit. Violence is an everyday concern 
in most of our schools. Our class sizes can average between 35 
and 38 students per class.
    We have a difficult time attracting and retaining teachers 
in our most needy schools. Given the choice, many of our young 
teachers choose to leave Flint as soon as an opportunity 
presents itself or to pursue other careers that are less 
stressful and environments which have better compensation.
    Like many urban and rural districts, Flint schools have 
gaps in access to after school programs and extended learning 
time. We have curriculum gaps, preventing students from 
accessing a rich and broad curriculum.
    Many of our schools do not have access to arts, advanced 
placement or physical education courses, nor do they have 
access to innovative curriculum such as information literacy, 
environmental education, and also financial literacy.
    We have also had significant infrastructure and school 
environment gaps that hamper learning. We have so many old 
buildings that were built at the turn of the century.
    While one of the primary purposes and goals of No Child 
Left Behind is to close the achievement gaps, this has not been 
the outcome.
    Let me read the words of a teacher from Delton, Michigan. 
And this is an example we can spread all the way across the 
state of Michigan, especially in Flint.
    ``I had a third grade student who was far below grade level 
in all subjects. She needed extra help in order to have any 
chance of keeping up with our class. I placed this child on the 
Reading Recovery teacher's list, but I was told that they could 
not accept this child into the reading class because this 
student was so far behind and that she didn't have a chance of 
catching up enough to pass the standardized test. The goal was 
not to help those who needed the help, but to help only those 
who may be able to pass a test if given a little help. Are we 
leaving students behind because of No Child Left Behind? I 
think so.''
    My colleagues and I are not afraid of accountability. We 
simply do not see the current system as fair or effective. If 
the No Child Left Behind accountability system were applied to 
other professions eventually lawyers would have to win every 
case and doctors would have to cure every patient.
    We should employ multiple measures in asserting both 
individual student learning and overall school effectiveness in 
improving student learning.
    States should be permitted to design richer, more accurate 
systems based on a wide variety of factors, including growth 
models, that should be weighed in making determinations about 
whether or not a school is high performing.
    We also need to ensure that our schools are infused with a 
21st century curriculum. How? Here are just a few ideas.
    Fund grants to states that develop 21st century content and 
authentic assessments that measure 21st century skills and 
knowledge. Reform our secondary schools so they encourage as 
many students as possible to attend college and provide course 
work to reduce dramatically the need for remediation in 
college. We have to address the dropout crisis. Estimates in 
Flint put graduation rates at below 50 percent, an unacceptable 
situation that must be remedied.
    Congress should also think broadly about how to ensure 
quality educators in every classroom. For example, reward 
states that set a reasonable minimum starting salary for 
teachers and a living wage for support professionals working in 
school districts that accept federal funds. The National 
Education Association recommends that no teacher in America 
should make less than $40,000 and no public school worker 
should make less than $25,000 or a living wage.
    We need to address working conditions by restoring a 
separate funding stream to help states reduce class sizes.
    And I see my time is up. I'm running very, very short here. 
There's just one thing I wanted to add. There's a lot of things 
here I could talk about. But as I sit in this room, in all due 
respect to what happened in Louisiana and the Gulf Coast where 
they had a hurricane, as we sit here today we're in the eye of 
a hurricane here, and it's an economic hurricane.
    And as you know, our standard of living has been--well, at 
one time Flint in the 1970s had one of the highest per capita 
incomes in the United States of America, and that would also 
apply to my colleagues in Saginaw and also Bay City.
    We've been turned upside down, and I guess what I'm telling 
you is we need a little help. This is a very, very proud 
community and a very, very proud area of the state.
    Why I bring this up is because of this situation a lot of 
things come into our schools that are very difficult to handle. 
And we have some of the best teachers in the United States. And 
they're more than just teachers. They're social workers. 
They're moms. They care for our children. And a lot of the 
problems that are coming in are a part of social issues, and it 
takes more than just one person to do that. We need a community 
as Mr. Davis talked about. But we need a little help here 
financially also with No Child Left Behind.
    We have given our tax dollars in this community, and I'm 
sure we were a donor area for a number of years because of our 
high salary, and at this time--or our high taxes that we paid 
to the federal government, and at this time we need a little 
help.
    And I thank you very much.
    [The statement of Mr. Burroughs follows:]

        Prepared Statement of Steve Burroughs, President, United
   Teachers of Flint, on Behalf of the National Education Association

    Chairman Kildee: Thank you for the opportunity to speak before the 
subcommittee today on these very important issues. I am honored to be 
able to represent the United Teachers of Flint, the Michigan Education 
Association, and the 3.2 million members of the National Education 
Association.
    I am here today to share my views, based on my personal 
experiences, on the impact of No Child Left Behind on public schools. I 
am a proud product of the Michigan school system. I have an Associate's 
degree from Mott Community College in Flint, a Bachelor's degree from 
the University of Michigan at Flint, and a Masters degree from Central 
Michigan University. I taught elementary school for 15 years in Flint 
public schools and I currently serve as president of United Teachers of 
Flint. My daughter went to Flint public schools and my five-year-old 
grandchild will soon follow in her footsteps.
    In my experience, educators enter the profession for two reasons--
because we love children and we appreciate the importance of education 
in our society. We want all students to succeed. We show up at school 
every day to nurture children, to bring out their full potential, to be 
anchors in children's lives, and to help prepare them for the 21st 
century world that awaits them.
    To that end, we view reauthorization of the Elementary and 
Secondary Education Act (ESEA) as an opportunity for a renewed national 
discussion about public education. You, as our elected officials, have 
an opportunity to elevate this dialogue to a new level, to be bold, to 
embrace not only the call for equity in American education, but the 
demand for innovation as well. We hope that this debate will ultimately 
unite the nation as we strive to fulfill the promise of public 
education to prepare every student for success in a diverse, inter-
dependent world.
What Do We Want From Public Education and What Role Should the Federal 
        Government Play in Achieving These Goals?
    Public education is the gateway to opportunity. All students have 
the human and civil right to a quality public education and a great 
public school that develops their potential, independence, and 
character. Public education is vital to building respect for the worth, 
dignity, and equality of every individual in our diverse society and is 
the cornerstone of our republic. Public education provides individuals 
with the skills to be involved, informed, and engaged in our 
representative democracy.
    The expertise and judgment of education professionals are critical 
to student success. Partnerships with parents, families, communities, 
and other stakeholders are also essential to quality public education 
and student success. Individuals are strengthened when they work 
together for the common good. As education professionals, we improve 
both our professional status and the quality of public education when 
we unite and advocate collectively. We maintain the highest 
professional standards, and we expect the status, compensation, and 
respect due all professionals.
How Should We Use Accountability Systems to Remedy Educational 
        Disparities?
    If we agree that public education serves multiple purposes, then we 
know there must be a richer accountability system with shared 
responsibility by stakeholders at all levels for appropriate school 
accountability. Such an accountability system must marry not only 
accountability for achievement and learning by students, but also 
shared accountability to remedy other gaps in our education system and 
flaws in the current accountability model.
Opportunity Gaps
    Before I address achievement and skills gaps, I would like to take 
a moment to discuss the opportunity gaps that hinder so many of our 
nation's children. I see these gaps first hand every day in Flint.
    Let me give you a picture of the challenges facing the Flint public 
schools as they work to provide students with the great public 
education they so richly deserve. Some 85 to 90 percent of students in 
Flint public schools qualify for free lunch. The Flint school district 
is financially strapped and is currently running a $13 million deficit. 
Violence is an everyday concern in most of our schools. Our class sizes 
can average 35 to 38 students per class. In addition, we have a 
difficult time attracting and retaining teachers in our most needy 
schools. Given the choice, many of our young teachers choose to leave 
Flint as soon as an opportunity presents itself to pursue careers in 
less stressful environments or those with better compensation.
    Like many urban and rural school districts, Flint schools have gaps 
in access to after school programs and extended learning time programs 
and curriculum gaps preventing students from accessing a rich and broad 
curriculum. For example, many of our schools do not have access to 
arts, advanced placement, or physical education courses, nor do they 
have access to innovative curricula such as information literacy, 
environmental education, and financial literacy.
    We also have significant infrastructure and school environment gaps 
that hamper learning. A report released in May 2005 by the Citizens 
Research Council of Michigan and the Education Policy Center at 
Michigan State University, pegged the total need for repairing old 
buildings or constructing new ones at about $8.7 billion. In Michigan, 
there are schools built at the turn of the 20th century and there are 
state-of-the-art facilities where any parents would be proud to send 
their children in the 21st century. In 2004, the Saline school district 
opened an $89 million high school. The facility features 13 science 
classrooms/laboratories, a television studio, and mobile computer labs 
that can move from classroom to classroom. Students also enjoy access 
to two gyms, an eight-lane swimming pool, and other amenities for 
athletes. Meanwhile, students in Flint, Detroit, Benton Harbor, and 
many other communities can only imagine the kind of facilities that 
Saline students have.
    We simply must address these opportunity gaps if we have any hope 
of tackling achievement and skills gaps.
Achievement and Skills Gaps
    While one of the primary purposes and goals of NCLB is to close 
achievement gaps, that has not been the outcome. My colleagues and I 
are not afraid of accountability. We simply do not see the current 
system as fair or effective. If the NCLB accountability system were 
applied to other professions, eventually lawyers would have to win 
every case and doctors would have to cure every patient. We need to 
take a hard look at the current law and design a common-sense system 
designed to raise student achievement and close achievement gaps.
    Such a system must include the following elements:
    Improved methods to assess student learning, including improving 
the quality of assessments and giving real meaning to NCLB's ``multiple 
measures'' requirement
    The term ``achievement gaps'' has become synonymous with 
differences in scores on standardized tests between groups of students. 
And, given the poor quality of tests across the country, those test 
scores reflect little more than a student's ability to regurgitate 
facts. If we are truly committed to preparing our children to compete 
in the 21st century economy and world, we need to develop and assess a 
broader set of knowledge and skills.
    NEA has been engaged for the last four or five years in a 
collaborative effort with businesses and other education groups to 
attempt to define ``21st century skills.'' The Partnership for 21st 
Century Skills has issued several reports along these lines as well as 
a set of principles for ESEA reauthorization (http://www.nea.org/esea/
21stcenturynclb.html). These principles state in part: ``Standardized 
achievement assessments alone do not generate evidence of the skill 
sets that the business and education communities believe are necessary 
to ensure success in the 21st century.''
    We believe we should employ multiple measures in assessing both 
individual student learning and overall school effectiveness in 
improving student learning. For example, we believe a richer more 
accurate system that a state should be permitted to design could 
include statewide assessment results at 50 percent, high school 
graduation rates at 25 percent, and one other factor, such as local 
assessments, at 25 percent. Multiple measures systems would provide the 
public with a more complete picture of their local schools and their 
states' ability to provide great public schools for every child.
    Frank Burger, a high school teacher and NEA member from Grand 
Blanc, Michigan, tells NEA:
    ``For the past few years, I have taught eighth grade science. Each 
year, I have to give a test that will measure how well our school is 
doing with respect to NCLB. It does not take into account the other 
factors that could tell how well a school is achieving. One problem is 
that high-stakes testing is not the only way to measure a school's 
success. The other problem is that it feels as if teachers are now 
teaching to the test so students can pass it. Many factors should be 
used to help students achieve, not just one test.''
            Systemic supports for schools and individual supports and 
                    interventions for students
    An accountability system should ensure that all subgroups of 
students are being served in a manner that will eliminate disparities 
in educational outcomes. Yet, doing so must begin with an explicit 
understanding that every child is unique and that the entire system 
should be accountable for serving each individual child's needs. The 
tension between approaches is no better illustrated than by comparing 
NCLB accountability, which is focused on student subgroup outcomes, to 
the Individuals with Disabilities Education Act, which uses an 
individualized approach to accountability through Individualized 
Education Plans.
    Consider the story told by Vella Trader, an elementary school 
teacher and NEA member from Delton, Michigan:
    ``I had a third grade student who was far below grade level in all 
subjects. She needed extra help in order to have any chance of keeping 
up with our class. * * * I placed this child on [the Reading Recovery 
teacher's] list, but the teacher said that she could not accept this 
child into her reading class because this student was so far behind 
that she didn't have a chance of catching up enough to pass any 
standardized test. * * * The goal was not to help those who needed the 
help, but to help only those who may be able to pass a test if given a 
little help. * * * Are we leaving students behind because of ESEA? I 
think so!''
    In order to close achievement and skills gaps between groups of 
children, we must acknowledge the need for two simultaneous approaches: 
changes in the way we provide supports and interventions to the school 
and changes in the way we provide supports and interventions to 
individual students who need help. NEA's Positive Agenda for the ESEA 
Reauthorization (http://www.nea.org/esea/posagendaexecsum.html) sets 
forth a variety of supports we hope will be included in the next 
reauthorization of ESEA.
What Other Roles Can the Federal Government Play in Ensuring a Great 
        Public School for Every Child?
            Innovation and graduation for all
    In addition to accountability for student learning, the federal 
government should focus on less tangible, but no less important, 
differences in the development of students as well-rounded individuals 
prepared for life after high school graduation. Our schools need to 
reflect the world in which our children live: a world infused with a 
21st century curriculum. They need to help students become well-rounded 
individuals with skills to compete in a changing world and contribute 
to the rich, diverse societal fabric that makes our country so 
impressive. Ultimately, an educational experience that is more relevant 
to a student is going to be more engaging and will lead to greater 
knowledge and skills. A rich, relevant, and challenging experience can 
help address all students' needs. It can captivate and challenge our 
gifted students, while also providing a positive influence for students 
at risk of dropping out or engaging in high-risk behaviors.
    As NEA member Terese Fitzpatrick, a middle school teacher from 
Howell, Michigan, has told NEA:
    ``I spend more time testing than I ever have, which means that 
students spend less time on learning tasks. * * * I'm testing all 
students with the same test as there is no distinction between kids or 
ability levels. I'm teaching to a limited number of benchmarks because 
that is what is on the test. Students get no time to pick out interest 
areas; students are never given the time to prove their knowledge 
through creative, self-chosen projects. So, does their education and 
testing truly reflect the kinds of tasks that will be required of them 
as adults? Are they being allowed to do the kinds of projects that will 
truly pique their interest and thus increase their motivation to learn? 
Schools are moving in the wrong direction.''
    All of our schools, particularly high schools, should encourage as 
many students as possible to attend college and should provide 
coursework to reduce dramatically the need for remediation in college. 
At the same time, we also must acknowledge the continued need for a 
major investment in career and technical education programs. And, we 
need to ensure that high schools take into consideration the transition 
needs of all student populations, not just students with disabilities. 
In other words, we need to do whatever it takes to ensure that a 
student's next step after high school will be one he or she takes with 
the confidence that comes from being well-prepared.
    Finally, we urge Congress to adopt a ``graduation for all'' 
proposal that combines the work of Representative Hinojosa and Senators 
Bingaman and Murray with NEA's 12-point action plan to address the 
dropout crisis in America (http://www.nea.org/presscenter/
actionplan1.html). Estimates put Flint's graduation rate at below 50 
percent--an unacceptable situation that must be remedied.
    We believe Congress should provide funding for grants to states 
that agree to eliminate the concept of ``dropping out'' of school or 
that raise the compulsory attendance age. We need graduation centers 
for 19- and 20-year-olds and those who have dropped out of school--a 
concerted effort to prevent the loss of one more child and to help 
those who already have dropped out. This is not only in America's self-
interest to ensure future competitiveness, it is a moral imperative.
            Quality educators in every classroom
    NEA's Positive Agenda includes a number of proposals to ensure the 
highest quality educators. Beyond these proposals, we encourage 
Congress to think broadly about this important issue. For example, we 
believe Congress should reward states that set a reasonable minimum 
starting salary for teachers and a living wage for support 
professionals working in school districts that accept federal funds. We 
have asked our nation's educators to take on the most important 
challenge in ensuring America's future. Yet, we have denied these 
educators economic security and respect. It is time to end this 
untenable situation. Congress must take a bold step and set that 
minimum standard.
    NEA would recommend that no teacher in America should make less 
than $40,000 and no public school worker should make less than $25,000 
or a living wage. According to a recent study by the National 
Association of Colleges and Employers, the teaching profession has an 
average national starting salary of $30,377. Meanwhile, computer 
programmers start at an average of $43,635, public accounting 
professionals at $44,668, and registered nurses at $45,570.\1\ Even 
more shocking is that the average salary for full-time 
paraprofessionals is only $26,313, with a wide salary range across job 
duties. NEA has education support professional members who live in 
shelters, others who work two and three jobs to get by, and others who 
receive food stamps. This is an unacceptable and embarrassing way to 
treat public servants who educate, nurture, and inspire our children. I 
would encourage you to read their stories.\2\
---------------------------------------------------------------------------
    \1\ A recent report from the NEA Research Department (Teacher Pay 
1940--2000: Losing Ground, Losing Status), based on U.S. census data, 
finds that annual pay for teachers has fallen sharply over the past 60 
years in relation to the annual pay of other workers with college 
degrees. The report states: ``Throughout the nation, the average 
earnings of workers with at least four years of college are now over 50 
percent higher than the average earnings of a teacher.'' Furthermore, 
an analysis of weekly wage trends by researchers at the Economic Policy 
Institute (EPI) shows that teachers' wages have fallen behind those of 
other workers since 1996, with teachers' inflation-adjusted weekly 
wages rising just 0.8 percent, far less than the 12 percent weekly wage 
growth of other college graduates and of all workers. Further, a 
comparison of teachers' weekly wages to those of other workers with 
similar education and experience shows that, since 1993, female teacher 
wages have fallen behind 13 percent and male teacher wages 12.5 percent 
(11.5 percent among all teachers). Since 1979, teacher wages relative 
to those of other similar workers have dropped 18.5 percent among 
women, 9.3 percent among men, and 13.1 percent among both combined.
    \2\ ``Why Money Matters,'' NEA Today, November 2006, http://
www.nea.org/neatoday/0611/feature3.html and http://www.nea.org/pay/
index.html.
---------------------------------------------------------------------------
    We also urge Congress to advance teacher quality at the highest 
poverty schools by providing $10,000 federal salary supplements to 
National Board Certified Teachers. Congress also should fund grants to 
help teachers in high poverty schools pay the fees and access 
professional development supports to become National Board Certified 
Teachers. In addition, you should consider other financial incentives 
to attract and retain quality teachers in hard-to-staff schools 
including financial bonuses, college student loan forgiveness, and 
housing subsidies.
    Finally, we believe that the equitable distribution of highly 
qualified teachers depends not just on decent wages, but more 
importantly upon the teaching and learning conditions in each school. 
In Flint, our extreme financial situation has made it impossible to 
reduce class sizes. Therefore, we strongly encourage Congress to 
restore a separate funding stream to help states reduce class sizes. We 
believe that ensuring the greatest possible individualized attention 
for each student should be as high a priority as ensuring that each 
student achieves at a certain level. In fact, the two goals are 
inextricably linked, as research clearly shows the positive impact of 
small class size on student learning.
Specific Changes to No Child Left Behind
    My testimony today has focused primarily on the big picture--the 
ideals and principles that should guide debate on the federal role in 
education and should frame the context for NCLB reauthorization. If, 
however, Congress should approach reauthorization by looking to tweak 
the law rather than consider broader policy changes, we would offer the 
following suggestions, which are of utmost concern to NEA's members:
    1. Allow states to use a ``growth model'' as part of the AYP 
definition (provided that state data systems are equipped with 
individual student identifiers) to track and give credit for student 
growth over time.
    2. Clarify the language about assessments. Tests should be used for 
diagnostic purposes and educators should receive results in a timely 
manner to inform instructional strategies. Overall, assessment language 
should require a much more comprehensive look at the quality of 
assessments for all student populations and their true alignment with 
state content standards.
    3. Encourage 21st century assessment that is web-based and provides 
timely results useful to teachers, parents, and students. Such 
assessments should be accessible to all student populations.
    4. Replace current accountability labels (``in need of 
improvement,'' ``corrective action,'' and ``restructuring'') with a 
system that rewards success in closing achievement gaps and focuses on 
helping schools. Semantics and policies should reflect the goal of 
targeting help where it is needed most. Therefore, schools in need of 
additional supports and interventions should be classified as: priority 
schools, high priority schools, and highest priority schools.
    5. Mandate multiple measures in the AYP system. Current multiple 
measure language is not enforced in a way that gives schools and 
districts credit for success on factors other than state standardized 
assessments, including such measures as school district and school 
assessments, attendance, graduation and drop-out rates, and the percent 
of students who take honors, AP, IB, or other advanced courses.
    6. Extend from one year to a maximum of three years the time for 
newly arrived English Language Learners to master English before being 
tested in English in core content areas. This change would be 
consistent with research findings about the average pace for English 
language acquisition. Students who become proficient in English in 
fewer than three years should be tested in English. However, to expect 
a non-English speaker to take a math or reading test in a second 
language prior to achieving proficiency in that language sets that 
student up for failure. At the same time, Congress should exert 
pressure on the system to provide valid and reliable native language 
assessments, and should provide the necessary resources to ensure their 
availability.
    7. Include students with disabilities in any accountability system, 
but allow states to use grade level appropriate authentic assessment 
for special education students based on their IEPs. Under IDEA '04, IEP 
teams are required to ensure that IEPs are aligned with state content 
standards and state achievement standards. Teams are also required to 
set annual measurable objectives for students with disabilities, so 
that growth in their learning is not only expected, but required.
    8. Provide a separate funding stream for and target public school 
choice and supplemental services to those students who are not reaching 
proficiency in reading and math.
    9. Improve the quality and oversight of supplemental services to 
ensure they meet the same standards as public schools.
    10. Close two loopholes in the highly qualified teacher definition. 
NCLB itself exempts some teachers in charter schools from having to be 
fully licensed or certified. The Department of Education's regulations 
allow individuals going through alternate route to certification 
programs to be considered highly qualified for up to three years before 
completing their program. Each of these exemptions should be 
eliminated.
    I thank you again for the opportunity to speak with the 
subcommittee today and would be pleased to answer any questions.
                                 ______
                                 
    Mr. Kildee. Thank you, Mr. Burroughs.
    Miss Debardelaben.

            STATEMENT OF ANDREA DEBARDELABEN, PARENT

    Ms. Debardelaben. Mr. Chairman, Mr. Davis, I wish to thank 
the committee for giving me the opportunity to speak on behalf 
of nearly 85,000 members of the Michigan state PTA and 5.5 
million PTA members nationwide. I am glad to see Congress 
working so hard for our children.
    My name is Andrea Debardelaben. I am a member of the 
Michigan PTA. I have been a member of the PTA for about eight 
years. I have been a day-care provider for about five years.
    I have three children of my own, two boys, a first and 
fifth grader that attend Longfellow Elementary, and a daughter 
that attends SASA, Saginaw Arts and Science Academy.
    Mr. Chairman, parent involvement in a child's education is 
a major factor in determining success in schools. Successful 
parental involvement strategies vary from region to region, 
school to school, parent to parent. However, it is important 
that Congress find ways to help provide parents more 
opportunity to get involved.
    As you begin work on the upcoming reauthorization of the No 
Child Left Behind Act I ask that you pay special attention to 
the roles parents and our local communities have in trying to 
improvement the academic achievement of all students.
    As a member of the Michigan PTA and a strong advocate for 
our children I have firsthand knowledge of the importance of 
parent involvement. Moving beyond the normal definition of 
involvement has been key to helping many schools across 
Michigan. Still, there is much work left to do.
    The state of Michigan has the third worst economy in the 
entire United States. What makes the statistics more staggering 
is the two states ranked below Michigan have been devastated by 
hurricanes which were the immediate cause for their setback. 
Not surprising, a lot of the reasons for Michigan's poor 
economic status has to do with its education system.
    Years back Michigan was a thriving blue collar state. 
Manufacturing jobs flourished and a person with a high school 
education could make a decent living. That is no longer the 
case. With jobs leaving the state, Michigan is having a tough 
time filling the void and changing the mind-set of the 
importance of a good education.
    So how exactly has No Child Left Behind affected Michigan's 
schools, and more specifically has it helped improve parent 
involvement statewide? From PTA's perspective we have seen some 
successes and some failures. No Child Left Behind has done a 
good job in trying to get more parents to care about their 
child's education. This will hopefully help turn around our 
education systems to provide an education which provides the 
skills and knowledge needed for children to succeed in a new, 
invigorated economy.
    Michigan PTA believes that parent engagement starts at the 
very beginning. As the owner of a day-care center I can tell 
you we work very hard in preparing young children to be ready 
for school. At a young age we are trying to instill upon them 
the skills which they need to build a solid foundation for 
their education. A strong part of this preparation begins at 
home. Trying to get parents involved in what their children are 
learning is very important. I am proud to say that many of the 
practices we are using help kids and parents alike.
    One of the biggest roadblocks I have found in trying to get 
parents more involved in their school is their work schedule. 
Parents work an awful lot and find it difficult to take time 
off to support the child's learning. Parents always want to be 
there for their child; however, a lot of decisions are made for 
them by their long work hours and commute times. I am 
encouraged by the actions teachers are making in my child's 
school. Many will take meetings during lunch or make other 
arrangements to accommodate a parent's schedule. However, these 
meetings still do not provide the parent or teacher enough time 
to cover every concern and aspect of the child's education.
    On a personal note, I would like to tell you a story about 
my child. This story, I believe, highlights an intrinsic flaw 
in No Child Left Behind, one that I hope reauthorization will 
help fix.
    My child attends an elementary school that just has in the 
past couple of years achieved Adequate Yearly Progress. I wish 
to compliment the leadership of my child's school in turning 
around the school and truly making a difference in many of the 
students' lives.
    My son, however, is a unique case. He has a very tough time 
at school. I cannot tell you how hard he tries. There are 
certain courses which just give him trouble and he needs some 
extra help in these subjects. The resources to help my son used 
to exist at his school. No Child Left Behind mandated that 
since the school didn't make AYP supplemental education 
services must be provided to help those students who needed 
more attention. Obviously, the SES services helped the school 
improve. Yet in achieving AYP the school no longer offers these 
important services, services that my son needs to be 
successful.
    Although the law passed five years ago, many children are 
still left behind. And the irony is that many of these students 
are coming from schools that are found to be achieving 
academically.
    I would ask the committee to move beyond how the overall 
school is doing and pay more attention to the individual 
student. By identifying those students who need the most help, 
bringing their parents into the classroom and tracking their 
progress throughout their education career we can truly begin 
to make a difference in Michigan's education system.
    Mr. Chairman, members of the committee, I thank you for 
this chance to speak on behalf of the parents and children of 
Michigan and PTAs across the nation. I believe your efforts to 
improve the law can help provide a better education for every 
child and allow our children to be more competitive in the 
worldwide market. Parents and community involvement must be 
viewed as part of the solution.
    People in every community across the country are trying to 
increase parent involvement. If this committee can help provide 
these partnerships with more resources and more flexibility, 
innovative solutions will emerge and our children's academic 
achievement will rise.
    Thank you for this opportunity. I look forward to further 
discussions on this important issue.
    [The statement of Ms. Debardelaben follows:]

           Prepared Statement of Andrea Debardelaben, Parent

    Mr. Chairman, I wish to thank the Committee for giving me this 
opportunity to speak on behalf of the nearly eighty five thousand 
members of the Michigan State PTA and the 5.5 million PTA members 
nationwide. I am glad to see Congress working so hard for our children.
    My name is Andrea Debardelaben and I am a member of the Michigan 
PTA. I have been a member of the PTA for about 8 years. I have been a 
daycare provider for about 5 years. I have 3 children of my own--2 
boys, 1st and 5th graders that attend Longfellow Elementary and a 
daughter that attends Saginaw Arts and Science Academy.
    Mr. Chairman, numerous studies have documented that regardless of 
the economic, ethnic, or cultural background of the family, parent 
involvement in a child's education is a major factor in determining 
success in school. Successful parental involvement strategies vary from 
region to region, school-to-school, parent to parent. However, it is 
important that Congress find ways to help provide parents more 
opportunities to get involved. As you begin work on the upcoming 
reauthorization of the No Child Left Behind Act I ask that you pay 
special attention to the role parents and our local communities have in 
trying to improve the academic achievement of all students.
    As a member of the Michigan PTA and a strong advocate for our 
children, I have first hand knowledge of the importance of parent 
involvement. Moving beyond the normal definition of involvement has 
been key to helping many schools across Michigan. Still, there is much 
work left to do.
    The state of Michigan has the 3rd worst economy in the entire 
United States. What makes this statistic even more staggering is the 
two states ranked below Michigan have been devastated by hurricanes 
which were the immediate cause for their setback. Not surprising, a lot 
of the reason for Michigan's poor economic status has to do with its 
education system.
    Years back, Michigan was a thriving blue collar state. 
Manufacturing jobs flourished and a person with a high school education 
could make a decent living. That is no longer the case. With jobs 
leaving the state, Michigan is having a tough time filling the void and 
changing the mindset of the importance of a good education.
    So how exactly has No Child Left Behind affected Michigan's schools 
and more specifically has it helped improve parent involvement state-
wide? From PTA's perspective we have seen some successes and some 
failures. No Child Left Behind has done a good job in trying to get 
more parents to care about their child's education. This will hopefully 
help turn around our education system to provide an education which 
provides the skills and knowledge needed for children to succeed in a 
new, invigorated economy.
    Michigan PTA believes that parent engagement starts at the very 
beginning. As the owner of a daycare center I can tell you we work very 
hard in preparing young children to be ready for school. At a young age 
we are trying to instill upon them the skills which they will need to 
build a solid foundation for their education. A strong part of this 
preparation begins at home. Trying to get parents involved in what 
their children are learning is very important. I am proud to say that 
many of the practices we use are helping kids and parents alike.
    One of the biggest roadblocks I have found in trying to get parents 
more involved is their work schedule. Parents work an awful lot and 
find it difficult to take time off to help support their child's 
learning. Parents always want to be there for their child; however a 
lot of this decision is made for them by their long work hours and 
commute times. I am encouraged by the actions teachers are making in my 
child's school. Many will take meetings during lunch time or make other 
arrangements to accommodate a parent's schedule. However, these 
meetings still do not provide the parent or teacher enough time to 
cover every concern and aspect of the child's education.
    On a personal note, I would like to tell you a story about my own 
child. This story I believe highlights an intrinsic flaw in No Child 
Left Behind, one that I hope the reauthorization will help fix.
    My child attends an elementary school that just has achieved 
Adequate Yearly Progress for the first time. I wish to compliment the 
leadership of my child's school in turning around the school and truly 
making a difference in many of the students' lives.
    My son however is a unique case. He has a very tough time at 
school. I cannot tell you how hard he tries. There are certain courses 
which just give him trouble, and he needs some extra help in these 
subjects. The resources to help my son used to exist in his school. No 
Child Left Behind mandated that since the school didn't make AYP, 
Supplemental Education Services must be provided to help those kids who 
needed more attention. Obviously the SES services helped the school 
improve. Yet in achieving AYP, the school no longer offers these 
important services, services that my son needs to be successful.
    Although the law passed 5 years ago, many children are still being 
left behind. And the irony is that many of these students are coming 
from schools that are found to be achieving academically. I would ask 
the Committee to move beyond how the overall school is doing and pay 
more attention to the individual student. By identifying those students 
who need the most help, bringing their parents into the classroom, and 
tracking their progress throughout their education career, we can truly 
begin to make a difference in Michigan's education system.
    Mr. Chairman, members of the Committee, I thank you for this chance 
to speak on behalf of the parents and children of Michigan and PTAs 
across the nation. I believe your efforts to improve the law can help 
provide a better education for every child and allow our children to be 
more competitive in a world-wide marketplace. Parent and community 
involvement must be viewed as part of the solution.
    People in every community across the country are trying to increase 
parent involvement. If this Committee can help provide these 
partnerships with more resources and more flexibility, innovative 
solutions will emerge and our children's academic achievement will 
rise. Thank you again for this opportunity. I look forward to further 
discussions on this important issue.
                                 ______
                                 
    Mr. Kildee. Thank you, Miss Debardelaben.
    Mr. Tilley.

   STATEMENT OF DON TILLEY, SOCIAL STUDIES DEPARTMENT CHAIR, 
                      CENTRAL HIGH SCHOOL

    Mr. Tilley. Chairman Kildee and Congressman Davis, I would 
like to first of all thank you for allowing me this great 
honor.
    A father to four children I not only educate at work, but 
also at home.
    Since the inception of No Child Left Behind in 2002 
education has gone through major changes, some good, some not 
so good. I would like to right the wrongs and build upon what 
is working.
    First and foremost is funding. Mandates, resolutions and 
laws that are not supported by all the funds needed to 
implement them cannot and do not work. When I say supported by 
funds, that is not to imply a carrot and stick approach.
    For example, if classroom sizes are to be smaller under 
this act then the funds should be allotted to allow schools to 
hire professional educators and support staff at professional 
salaries to give each and every child the best possible 
education. I do not believe this is asking too much.
    Teachers in our district are not getting rich at the 
expense of anyone. In fact, they're paying for their health 
insurance benefits, and have been over the years by giving up 
increases in salaries and have not had a pay increase in nearly 
two years, let alone keeping up with the rate of inflation. I 
do not believe that anyone in this room or watching out there 
looks forward or strives to make less money next year than they 
did in the previous.
    Michigan was authorized to receive approximately $758 
million in Title I funding in fiscal year 2006 but received 
only $427 million. That shortfall comes at the expense of 
educators and support staff. We are a service industry. The 
greatest portion of our funds goes directly to providing 
education. Less funds, less opportunities for children, less 
chance of schools complying with the requirements of NCLB and 
meeting Adequate Yearly Progress.
    Secondly, No Child Left Behind, from my perspective, 
implies that no child is to be left behind. Implementation of 
AYP should not penalize children or schools, it should support 
them.
    As a teacher in a failing school due to a subgroup not 
having enough children take the state assessment I have seen 
firsthand what a blanket law can do to a school. Public schools 
cannot control the raw material or children who walk through 
their doors. Unlike a business we cannot turn away a child of 
any ability or lack thereof, and if a school does so, shame on 
them.
    If progress is a mandatory measurement then schools should 
be at the very least measured against themselves. By marking a 
school as failing communities are earmarked as failing, 
therefore not having or severely limiting the ability to 
attract new businesses and residents. The schools are then 
doubly punished as they will lose children and therefore 
resources. Schools that acquire students turned away often 
increase class sizes to accommodate the new students, thereby 
hurting another child's ability to acquire more individual 
assistance.
    When it comes to being highly qualified, NCLB has done a 
disservice to many students. Teachers who were more than 
qualified were forced to leave their positions and take 
positions in either retirement or under some other 
qualification umbrella. I encourage the committee to reform the 
HOUSSE process to make it easier for good teachers like some of 
my former colleagues to continue in their field.
    Furthermore, I am an individual who strives to achieve 
goals in my life. However, I am also a realist when it comes to 
these expectations. I will never play in the NBA. I can 
guarantee it. I was not blessed with the ability to put the 
ball in the net consistently, if at all. I was not born seven 
feet tall. I can live with that.
    I do, however, have a goal that each and every day I walk 
into the classroom I will put forth my best effort and 
recognize the abilities of each and every one of my students. I 
strive to give them the best education possible. I do not set 
any of my students up for failure.
    However, NCLB is doing just that. By setting goals that 100 
percent of students will be proficient in math and reading by 
2014 schools are set up for failure. Therefore, the students 
that attend those schools will be set up for failure. It is 
likely the schools not meeting this requirement will be 
penalized instead of rewarded for the progress they have made.
    Constant pressures to test our students more and more 
frequently consistently takes away from precious classroom 
time. Students learn by doing. Testing is often a necessary 
measure to obtain the cognitive information and abilities 
students have acquired; however, so is common sense. The 
greatest test of ability in each and every child's life will be 
just that, life. But not everyone will be afforded the same 
opportunities, so that test is flawed.
    Education must service all students regardless of social, 
economic or academic status or capabilities. No Child Left 
Behind needs to recognize this, not only in the form of 
individualized educational plans but by creating and funding 
programs for preschool children, ones similar to Early On and 
Head Start programs; programs for children that are need based 
due to a variety of social or economic pressures; programs for 
elementary school children before and after school. These 
programs should include staff and resources capable of 
providing true counseling services to children in need, whether 
the need be psychological, emotional, medicinal, sustenance or 
a result of neglect.
    Many children need these programs. They do not have a 
choice to walk out of a home where there is physical, emotional 
or neglectful abuse. While as a society we do not have the 
capabilities or resources to likely change the present culture, 
we can do our part to break this cycle. Teach children of pride 
and belonging throughout the educational process. No Child Left 
Behind can continue this positive direction by ensuring that 
courses in self-esteem and self-awareness are taught to the 
middle and high school.
    We as adults tend to push our children towards goals they 
may or may not achieve but often overlook what's really going 
on. Our children are constantly driven to measurement, but 
oftentimes are so consumed by their own physiological and 
emotional development they lose focus on those mandated goals. 
If children were educated on what their bodies, minds and 
emotions were going through, and that they were not alone, and 
that they were going to be all right, I am a firm believer that 
students would be better able to focus on the academics at 
hand, thereby developing stronger self-esteem and the 
capability of understanding.
    The United States has always been an academic leader. The 
results are obvious. They are sitting and working all around 
us. A focus on testing and more testing, modeling academics of 
the elite in China, who I understand are still a larger number 
than all of the people in the United States, is not where we 
have found our past nor where we shall find our future. We need 
to continue to be leaders in this world and not followers. We 
need to set precedents. We must strive not to forget the 
language in the Nation At Risk report some twenty years ago.
    Yes, we must strive for a more intelligent and forward-
thinking society, but we must also develop the skills and 
ethics in every child. We cannot push so hard on the academic 
elite that it comes at the expense of our talented and skilled 
in many other parts of our society. We also need auto 
mechanics, welders, contractors, painters, musicians, 
sculptors, graphic designers, software developers and whatever 
other future generational skill our students may offer. No 
Child Left Behind cannot forget that, and it must ensure that 
all students, regardless of academic ability, are given the 
opportunities to continue to develop and nurture those skills 
that make each and every one of us unique. Our future will not 
come cheaply, yet it is an investment we can ill afford not to 
make.
    Thank you.
    [The statement of Mr. Tilley follows:]

          Prepared Statement of Donald Tilley, Social Studies
                 Department Chair, Central High School

    Chairman Kildee and Members of the Subcommittee, I would first of 
all like to thank you for allowing me this great honor.
    I started teaching in 1991 at All Saints Central High School in Bay 
City, Michigan. After five successful years, opportunities began to 
present themselves and in 1996, I accepted an offer to begin teaching 
in the Bay City Public Schools, where I remain today. As a high school 
social studies teacher, and a product of the same school system in 
which I teach today, I have seen many changes in education. As you may 
or may not know, I am a hard working, forward thinking, and self-
motivated individual. A father to four children, ages ranging from 4 
(she will begin kindergarten this fall) to 15, I not only educate at 
work, but also at home. I hope to instill the same qualities and work 
ethic I have developed over my lifetime to not only the children I 
teach, but to my own.
    Since the inception of No Child Left Behind in 2002, education has 
gone through major changes. Some good and some not so good. As I stated 
before, I am forward thinking and would like to right the wrongs and 
build upon what is working.
    First and foremost is funding. Mandates, resolutions and laws that 
are not supported by all of the funds needed to implement them, cannot 
and do not work. When I say supported by funds, that is not to imply a 
carrot and stick approach. For example, if classroom sizes are to be 
smaller under this act (as they should be), then the funds should be 
allotted to allow schools to hire professional educators and support 
staff at professional salaries to give each and every child the best 
possible education. I do not believe this is asking too much. Teachers 
in our district are not getting rich at the expense of anyone, in fact 
they are paying for health insurance benefits, and have been over the 
years by giving up increases in salaries, and have not had a pay 
increase in nearly two years, let alone keeping up with the rate of 
inflation. I do not believe that anyone in this room or watching out 
there looks forward to or strives to make less money next year than 
they did in the previous.
    Correct me if I'm wrong, but Michigan was authorized to receive 
approximately $758 million in Title I funding for FY 2006, but only 
received $427 million. That is a funding shortfall of about $331 
million. That shortfall comes at the expense of educators and support 
staff. We are a service industry. The greatest portion of our funds 
goes directly to providing an education. Less funds, less opportunities 
for children, less chance of schools complying with the requirements of 
NCLB and meeting Adequate Yearly Progress (AYP).
    Secondly, No Child Left Behind, from my perspective implies that NO 
CHILD is to be left behind. Implementation of AYP should not penalize 
children or schools, it should support them. As a teacher in a failing 
school, due to a sub group not having enough children take the State 
Assessment, I have seen first hand what such a blanket law can do to a 
school. Failure to achieve one of approximately 30 requirements to meet 
AYP denies that school AYP. School districts cannot control cultures. 
They can however, shape them. Public schools cannot control the raw 
material, or children, who walk through their doors. Unlike a business, 
we cannot turn away a child of any ability or lack thereof, and if a 
school does so, shame on them. If progress is a mandatory measurement, 
then schools should be at the very least measured against themselves. 
By marking a school as failing, communities are earmarked as failing, 
therefore, not having or severely limiting the ability to attract new 
businesses and new residents. The schools are then doubly punished as 
they will lose children and therefore resources. Schools that acquire 
the students turned away, often increase class sizes to accommodate the 
new students, thereby hurting another child's ability to acquire more 
individual assistance.
    When it comes to being highly qualified, NCLB has done a disservice 
to many students. Teachers who were more than qualified were forced to 
leave their positions and take positions in either retirement or under 
some other qualification umbrella. One prime example I can give was an 
outstanding math teacher once working down the hall from me. She had 30 
years of service and was one of the best math teachers I have ever 
witnessed in action. She was a dedicated, hard working, student 
advocate and she knew her subject. Because of her Physical Education 
major and only a minor in the math field, and regardless of her 
accomplishments within the classroom and the students who walked 
through her door, at 30 plus years she was forced into retirement. Who 
benefited here? While we cannot change what has been done, the future 
of NCLB needs to consider the accomplishments, credibility, and talents 
of those who are successful in the field. While a simple grandfather 
clause could have saved many outstanding educators across this great 
country, NCLB must consider some form of credit or reward for years of 
successful experience in the classroom. I encourage the Committee to 
reform the HOUSSE process to make it easier for good teachers like my 
former colleague to continue in their field.
    Furthermore, I am an individual who strives to achieve goals in my 
life. However, I am also a realist when it comes to those expectations. 
I will not ever play in the NBA. I can guarantee it. I was not blessed 
with the ability to put the ball in the net consistently (if at all). I 
was not born 7 feet tall. I can live with that. I do however have a 
goal that each and every day I walk into the classroom I will put forth 
my best effort and recognize the abilities of each and everyone of my 
students. I strive to give them the best education possible. I do not 
set any of my students up for failure. Everyone matters.
    However, NCLB is doing just that. By setting goals that 100% of 
students will be proficient in math and reading by 2014 schools are set 
up for failure. Therefore, the students that attend those schools will 
be set up for failure. It is likely that schools not meeting this 
requirement will be penalized, instead of rewarded for the progress 
they have made. Constant pressures to test, test and test our students 
more and more frequently consistently takes away from precious 
classroom time. Students learn by doing. Some mandated tests such as 
ELA and Math Proficiency Equivalents can take up to as long as two 
weeks to administer. That time lost in the classroom impacts state 
assessment tests given later in the year. Those test results again come 
back to AYP and failing schools. Testing is often a necessary measure 
to obtain the cognitive information and abilities students have 
acquired. However, so is common sense. The greatest test of ability in 
each an every child's life will be just that--life. But not everyone 
will be afforded the same opportunities, so even that test is flawed.
    Education must service all students regardless of socio, economic, 
or academic status or capabilities. No Child Left Behind needs to 
recognize this, not only in the form of Individualized Educational 
Plans, but by creating and funding programs for pre-school children. 
Ones similar to the Early On and Head Start programs. Programs for 
children that are need based, due to a variety to socio or economic 
pressures. Programs for elementary school children before and after 
school. These programs should include staff and resources capable of 
providing true counseling services to children in need. Whether the 
need be psychological, emotional, medicinal, sustenance or as a result 
of neglect. As I stated before, we cannot change a culture, but we can 
impact children. Many children need these programs. They do not have a 
choice to walk out of a home where there is physical, emotional, or 
neglectful abuse. While as a society we do not have the capabilities or 
resources to likely change the present culture, we can do our part to 
change the children. To deliver the educational and social 
opportunities that can break the cycle. Teach children of pride and 
belonging throughout the educational process. No Child Left Behind can 
continue in this positive direction by ensuring that courses in Self-
Esteem and Self-Awareness are taught throughout middle and high school. 
We as adults tend to push our children toward goals they may or may not 
achieve, but often overlook what is really going on. Our children are 
constantly driven to measurement, but often times are so consumed by 
their own physiological and emotional development, they lose focus on 
those mandated goals. If children were educated on what their bodies, 
minds and emotions were going through, and that they were not alone, 
and were going to be alright, I am a firm believer that students would 
be better able to focus on the academics at hand, thereby developing 
stronger self esteem and the capability of understanding.
    The United States has always been an academic leader. The results 
are obvious. They are sitting and working all around us. A focus on 
testing and more testing, modeling the academics of the elite in China, 
who I understand are still a larger number than all of the people of 
the United States, is not where we have found our past, nor where we 
shall find our future. We need to continue to be leaders in this world 
and not the followers. We need to set precedence. We must not forget 
the language in the Nation at Risk report some twenty years ago. Yes, 
we must strive for a more intelligent and forward thinking society, but 
we must also develop the skills and ethics in every child. We cannot 
push so hard on the academic elite that it comes at the expense of our 
talented and skilled in all other parts of our society. We need auto 
mechanics, welders, builders, contractors, architects, seamstresses, 
painters, musicians, sculptors, graphic designers, software developers, 
and whatever other future generational skill our students may offer. No 
Child Left Behind cannot forget that. It must ensure that all students, 
regardless of academic ability, are given the opportunities to continue 
to develop and nurture those skills that make each and every one of us 
unique. Our future will not come cheaply, yet it is an investment we 
can ill afford not to make.
                                 ______
                                 
    Mr. Kildee. Thank you, Mr. Tilley. Thank you very much.
    I thank all of you for your testimony, and now we'll start 
asking some questions here. So I recognize myself now for five 
minutes, and I'll try to watch the light there.
    As I said in the beginning, we're probably going to keep in 
place the basic structure of No Child Left Behind. Nothing is 
certain in Washington, but the standards, the testing, the 
Adequate Yearly Progress and the effects or consequences, some 
of you use the word penalty, but I use the word effects.
    In those four elements are there any changes any of you 
think of where we could improve the bill? Are any of those too 
onerous, not strong enough, standards, testing, AYP?
    And in that I'll throw in this question also. Some teachers 
tell us, and some superintendents and principals, that we're 
spending too much time in testing. So if you could address 
those four elements or one of those four elements in the 
testing, starting with Mr. Solis.
    Mr. Solis. In terms of Adequate Yearly Progress, it doesn't 
take into account when you take a snapshot on an annual basis, 
it doesn't demonstrate any growth. And I think there's a real 
need for growth models to be accepted and allowed within the 
new legislation. Because I think teachers work very hard, 
administrators work very hard in terms of ensuring that our 
children are going more than one year, because they're 
further--they're behind more than one year. But even though 
they are growing at a pace faster than they would learn in a 
single year, they're still penalized if they don't meet that 
one test that they take that year. And if children are behind 
three years and they've made a year and a half worth of growth, 
the test will not indicate that. So I think growth models are 
very important.
    And once again, teachers as well as administrative support 
staff work diligently to ensure that the children are growing 
faster than what they would grow in a normal year.
    Mr. Kildee. Any other comments? Anything else on the AYP or 
any of the elements?
    Mr. Russell. Well, you know, just to address those programs 
that serve students with severe disabilities, I think the 
notion that standards are something that's so easily measured 
we have a tendency to measure those things that are easy to 
measure.
    I would suggest that for many students, not just students 
with severe disabilities, we look at individual growth over 
time. And it's a different application of the growth model, but 
we want--and we are accountable as well, but I think we've got 
to have a special system of accountability for very special 
schools, and also I think other students with disabilities as 
well.
    Mr. Kildee. Anyone else? Mr. Burroughs?
    Mr. Burroughs. Yes, I would have to concur with my two 
colleagues here to my right. A lot of the standardized tests 
are basically just a snapshot of what's going on in a child's 
life. But you mentioned a lot of teachers have told you about 
the amount of time wasted with numerous tests, and that is 
correct.
    But also I think you have to experience sometimes some of 
my elementary teachers as early as fourth and third grade. We 
benchmark our children so much because we're testing just so 
much, you see children actually cry. ``We're going to take 
another test.'' And what we have done as educators, now we're 
teaching towards a test. We've taken out the richness of 
education.
    But I want to concur with Mr. Russell. A lot of times when 
we deal with special ed children we have individual education 
plans. I think every child ought to have an individual 
education plan. Every child is unique, and every child learns 
at different rates. With a standardized test we're saying all 
children at such and such an age ought to be having these 
skills here. And that's just not realistic. Every child is 
unique and they should have an individual education plan.
    Thank you.
    Ms. Debardelaben. Yes, I can speak as a parent of a child 
that needs special education, but because their school met AYP 
he cannot get the services. He's still way below where he 
should be. He was a child that has been left--he repeated a 
grade already. But if you look at his testing you would think 
that he's not making any progress, and he really is. He just 
learns slower, at a slower rate.
    So I do think that the tests aren't showing that these 
children are learning, but just because Billy over here can't 
learn as fast as this young lady over here he's being penalized 
for that, and I don't agree with that.
    Mr. Kildee. Mr. Tilley?
    Mr. Tilley. I concur with the rest of the folks at the 
table here.
    And the more tests that are mandated the more time we're 
taking out of the classroom. For instance, we just took the 
State of Michigan's ACT at the high school level, the ACT and 
the MME test. Children with special needs were given or were 
mandated another four days to take that test. So they were 
literally out of the classroom for a week. And the teachers who 
were administering those tests also had to be out for that 
week, so the rest of the kids in their classroom were losing, 
because there was a whole week's worth of education they lost. 
We're coming down to minutes and hours as far as our year goes. 
Those are minutes and hours that are precious to those kids.
    And every time they're given another test, like some of the 
ELA tests and the math proficiency tests, they're taken out of 
the classroom which then will affect, adversely affect their 
results on the state test.
    So testing has become a major issue in the schools that 
seriously needs to be looked at.
    Mr. Kildee. Thank you very much. I now recognize the 
gentleman from Illinois.
    Mr. Davis. Thank you very much, Mr. Chairman. And let me 
just thank each one of you for your testimony.
    As a matter of fact, listening to you generates a lot of 
thought. In my mind it sort of causes me to feel like the young 
fellow in my hometown when I was growing who fell into a barrel 
of molasses and looked in the mirror and said ``Let me try and 
live up to this opportunity.'' And so I hope that I can come up 
with a question or two that really speaks to the eloquence of 
your testimony.
    Let me just ask a general question. Do either one of you 
believe that national standards can ever be fairly applied 
across the board?
    The reason I ask that question, I represent one of the most 
diverse congressional districts in America. I represent some of 
the wealthiest people in the world. I represent downtown 
Chicago, the Gold Coast, the Magnificent Mile, Water Tower 
Place, the owner of the baseball teams. But I also represent 70 
percent of public housing in the city. So I struggle with my 
schools in terms of what to actually expect from them.
    So do you believe that we can apply the same level of 
expectation to school districts without regard to the 
socioeconomic status of the environment in which they're 
placed.
    Mr. Solis. Congressman Davis, I don't think you could apply 
that fairly across this nation. Once again, by recognizing that 
children come from different socioeconomic bases, what happens 
to prior knowledge? What happens to those experiences children 
have outside of the school? And children of poverty do not have 
all of those opportunities. So I think it would be a very 
difficult thing to be able to implement.
    Then the other question would be if in fact it were to take 
place would there be sufficient resources for those that are 
further behind to catch up so they could meet those national 
standards.
    So at this point I would say no, that would not be 
something that could be accomplished. And then also it would 
fly in the face of local control of the schools and what they 
deem are to be sufficient standards.
    Mr. Davis. Anyone else?
    Mr. Russell. Yes, Congressman.
    I guess my concern is is that I still believe that each 
community has the responsibility to determine what it wants for 
its young people, and I worry about national standards that 
will only result in something that's easier to measure, that is 
acceptable to such a diverse country that we have that I really 
think that that takes out the most important part about 
education, and that is the community participation and setting 
its own standards.
    And that's not to say that low standards are acceptable at 
all. Matter of fact, I think if communities were allowed to set 
those standards they would be higher than any national standard 
you could get that has to please everybody.
    So that's my problem, not based on socioeconomic standards, 
or whatever, but really based on if you take that away from 
communities you take the most vital part about what education 
means to places like Flint and Genesee County.
    Mr. Burroughs. Congressman Davis, I must concur with my two 
colleagues. But what they have been successful in when we look 
at our state tests, if we look at the FCAT in Florida or the 
MEAP, you know, here in Michigan, and Illinois has one, what 
all those tests have been successful in doing is really--there 
are people that can go out and actually tell you what's going 
to happen on the test beforehand. And what we're doing is 
measuring the socioeconomics of students. They'll take the free 
lunch or the poverty issue percentage of it, and they're very 
accurate when they come up with, you know, what we're going to 
get on the test.
    And then we start beating communities down, and we start 
beating the folks at the lower end of the socioeconomics down. 
You go into a failing school, which is not the case.
    And also it differs in states, you know, sometimes, too. 
They'll say, ``Well, because the test in Michigan is very hard 
we've had so many numbers of schools that are unaccredited.'' 
I'll go to another state--and I'm not going to name that state 
or any other state. I'm not going to get into that. But they'll 
say, ``Well, they only had one unaccredited school.''
    Well, the tests are different sometimes. But what they are 
accurate in measuring is the socioeconomics of our children. 
And that's a sad state of affairs when we start very young and 
we start beating young children down, and our job is to make 
children dream. And they all learn at different rates.
    Mr. Tilley. I again agree. I'll give you one more example 
as to what happens when you set national standards. We have a 
state standard. Again with the ACT test being just taken 
recently students could no longer be prepped in the schools 10 
days prior to the test by the school itself. However--and if 
you were an online learner they had to pull it off their web 
sites by the end of February. However, if you had the money and 
the resources you could hire a tutor, you could go buy the 
books, you could go get CDs and you could prep till 8 o'clock 
in the morning before that test occurred.
    I mean, when you have a national or a state standard you're 
setting kids up for failure because it's not equal.
    Mr. Davis. Thank you, Mr. Chairman.
    Mr. Kildee. Thank you very much, Mr. Davis.
    Some have said, and I've observed this to some extent, but 
I'd like to get your views on this, some say that Michigan, 
first of all, started early and set high standards for itself 
and more stringent testing for itself, maybe more than another 
state which you mentioned you had in mind. I have a couple in 
mind, too, where the standards aren't as high as Michigan's and 
the tests may not be as stringent. And that concerns us, 
because Michigan, some say and have told me that they feel that 
Michigan's been penalized because it started early with high 
standards and stringent tests.
    Without administering a national test, say, the NAEP test, 
without administering that, could we use the NAEP test on an 
individual basis sampling to see how each state test might 
measure up in quality of the NAEP, quality of the NAEP? Anyone 
want to respond to that?
    Mr. Burroughs, you started it, do you want to----
    Mr. Burroughs. I started it. Okay.
    What you're saying would give you a fair glimpse of what's 
actually going on, I guess, state by state. Because I mentioned 
before, and I think you guys are very well aware of that, it 
varies from state to state what the test is. But it would give 
you some kind of a guide.
    But I just wouldn't want to make that test so heavily 
weighted that we destroy what--we're already doing that right 
now. And my colleague here has talked about that.
    I don't want to destroy kids, I want to build children up. 
I want to build families up. And what's come--one of the side 
effects of No Child Left Behind is is, you know, in some of our 
most neediest areas we're beating people down.
    It's very hard to tell a child that's fourth grade ``You 
didn't pass the MEAP test.'' And that child worked so hard. And 
he might have made adequate yearly progress. But as a teacher I 
think we struggle with that, and a parent, how we keep that 
child motivated, how we keep that child dreaming. And there's 
ways that we try to tell that child that.
    But a national level, at least it will give you some kind 
of a--it will level the playing field.
    And I see Mr. Solis wants to say something.
    Mr. Kildee. David.
    Mr. Solis. Chairman Kildee, in terms of assessing--I 
believe we have to be held accountable, and there's no question 
about it, because it's the taxpayers' dollars. And we concur 
with that.
    What we'd like to see, though, is as you indicate what this 
snapshot is measuring that there also be provisions in that 
that show actual amount of growth. And I'm not sure the NAEP 
does that.
    And so, yes, we need to be held accountable because these 
are precious dollars from our taxpayers. But at the same time 
how do we ensure that the full picture, the total picture is 
seen when we take--when we assess our children. So we're not 
opposed to the NAEP.
    Mr. Kildee. If we use NAEP just as a--not to measure the 
students so much, but to measure the test, would you find any 
danger in that?
    You know, when we established the Department of Education 
back in 1977, '78 under Jimmy Carter we forbade the federal 
government to set up a national curriculum. And that's still 
part of the law. And there are some who fear that the more you 
tighten down on testing that we are forcing people almost into 
a national curriculum.
    Do you think there's any danger if we could say, let's do 
some sampling here, take all the 50 states and see how their 
tests, whatever it may be in Mississippi, or Minnesota or 
Hawaii, is it as rigid as the NAEP test, and how does it relate 
to the rigidity of the NAEP test.
    Would you see any danger in doing that just on a sampling 
basis?
    Mr. Tilley. I see it as a Pandora's Box that once you open 
it and it comes down to who is going to be dictating policy as 
to what direction they would take those results. And I could 
see it just as what's happened with NCLB, and then Michigan has 
now jumped on board, you know, as one of the early runners on 
that, and now they've--and we now have a state curriculum. You 
know, that is one step closer to a national curriculum, and 
that is one step closer to a governmental society that we have 
so long tried not to become where the state is mandating what's 
going to be done, who will be doing it and how they will be 
doing it.
    I just--it's a fear I have. I mean, that doesn't 
necessarily mean that it's the wrong thing to do, but it's A 
flag that flies in front of me when I see that happening.
    Mr. Kildee. You think it would be a slippery slope?
    Mr. Tilley. Yes.
    Mr. Kildee. Thank you.
    Mr. Davis?
    Mr. Davis. Thank you, Mr. Chairman.
    Mr. Burroughs.
    Mr. Burroughs. Yes, sir.
    Mr. Davis. I think that a good part of No Child Left Behind 
was really developed in response to the notion that there was a 
lack of accountability on the part of teachers, that there was 
failure, that teachers unions had become too strong, too 
influential. And you're talking to a former union delegate and 
a member of the AFT, and I have a wife who is a teacher for 
thirty years, a sister who was a principal.
    But how do you answer the accountability and failure 
notions? The architects indicated that they felt that something 
had to be done to make sure that we were getting more mileage 
out of public education and that it was in a sad state, and, of 
course, No Child Left Behind was going to make it better. So 
how do you----
    Mr. Burroughs. I agree with what you said, Mr. Davis. I 
mean, I think it was a backlash on accountability. And we're 
not afraid of accountability. I guess it's how accountability 
is measured.
    Let me give you a personal experience from my--I had a 
fourth grade class, and they were all about three years behind. 
It was a group of children, I guess, no one wanted, you know. I 
got those children. I loved them every day.
    Now, did they make adequate yearly progress?
    Yes, sir, they did. And I worked--that was probably the 
hardest year I've ever worked in my life. And I loved those 
kids, and I gave them that. I gave them--I was mentor to them.
    Did they pass the MEAP test, which is the state's MEAP 
test? No, I only had two that passed that MEAP test.
    Now, if I took accountability and we just measured that on 
the MEAP test I was a complete failure. But in reality I was 
quite successful that year. Every one of my children made an 
adequate yearly progress from where they were at.
    So it's hard when you get into that accountability issue. 
How do you measure accountability?
    And there's so many things that go into teaching. With your 
background you know that now. I mean, there's so much that goes 
into it. I'm not afraid of accountability, but it's how it's 
measured. And that's where we get into that difficulty. How do 
we measure that?
    Mr. Davis. Sir, it would be very difficult for me to ever 
imagine you being a failure at all. And yet if you're only 
looking at the structured outcome of what happened with your 
class and with your students one could say, I guess, that 
something didn't come up to what was projected.
    Mr. Burroughs. Do you want to speak?
    Ms. Debardelaben. No.
    Mr. Davis. Go ahead.
    Mr. Burroughs. As a parent, too, I mean, you know, she 
would see what I did as a teacher, and she knows I'm working 
very hard. And, no, that child did not pass that MEAP test. But 
was that child successful? Yes. Was I successful? Yes.
    But if the accountability is strictly on that snapshot, in 
this case MEAP for accountability, I would be classified as a 
failure. In my heart I know I wasn't. But if we look at 
different issues such as that, that's the difficulty.
    And maybe Mr. Tilley would want to add to that as a 
teacher.
    Mr. Tilley. I think you hit the nail on the head, that to 
set a standard that everybody has to achieve is unrealistic. I 
mean, everybody is unique, everybody is different. That's what 
made this country so great is we've had people become artists. 
They wouldn't have tested well on a MEAP test. It's testing the 
math and sciences. And you have people that have different 
skills, and we need to nurture all of those skills.
    And so whether or not somebody wants to have a test that's 
going to measure where everybody's standing at as far as their 
academics goes, or their work keys, or whatever else they want 
to put on the test, it's got to be interpreted broadly, 
extremely broadly, because everybody is unique. And that's what 
makes public education and schools in this country so great.
    Mr. Solis. Congressman Davis, may I also respond to that?
    Mr. Davis. Yes.
    Mr. Solis. We all believe in accountability. We all believe 
that the subgroups should be performing at grade level. We're 
not afraid of the accountability. What we need is the 
additional support.
    For example, Mr. Jennings with the Center on Education 
Policy has been doing case studies across this nation in terms 
of what is working in terms of some of the sanctions under 
NCLB.
    We've been using the coaching model, and the coaching model 
we believe has been very effective. And if you look at our 
reform model here we have Tier 1 coaches, Tier 2 coaches, as 
well as intervention teachers. So, yes, we do need to look at 
data. But we also need to provide the support, and coaching is 
one way of doing it.
    I know there's options within the law that say you replace 
the entire staff. We don't see that as necessarily having an 
impact on student achievement. Replacing the principal. 
Sometimes replacing the principal doesn't change the new person 
coming in. But coaching people, whether it be at the 
administrative level or with teachers, or with para pros, we 
believe that's the way once you've looked at the data. And 
we've found that to be very successful here in Flint.
    Mr. Davis. Thank you very much.
    Mr. Kildee. Thank you, Mr. Davis.
    Ms. Debardelaben, you mentioned that in your son's school 
they at one time had not reached AYP, therefore they had 
special services----
    Ms. Debardelaben. Right.
    Mr. Kildee [continuing]. And your son and other students 
benefited from the special services.
    Ms. Debardelaben. Correct.
    Mr. Kildee. Then they were successful in reaching AYP and 
were deprived of those special services.
    Ms. Debardelaben. Yes.
    Mr. Kildee. That must be very frustrating both to the 
teachers, the parents and the students, right?
    Ms. Debardelaben. Yes.
    I have a son that works very hard. He works really--he 
wants to know. He just has a hard time.
    And I've done everything that I'm supposed to do as a 
parent at home. I meet with teachers, get different materials 
to work with him, and everything. It's just he needs that one-
on-one attention, but since he is not low enough to say that he 
needs--that he's, I guess, considered special ed that he is 
missing out on that extra help that he needs.
    Mr. Kildee. It's something that I want to look at, 
because--of course, it's going to cost some money----
    Ms. Debardelaben. Right.
    Mr. Kildee [continuing]. But again if we had appropriated 
what we should have appropriated Michigan last year would have 
got $331 million extra, which could have helped a great deal.
    But what I'm hearing from all of you is it's not just the 
lack of dollars, that there's some other things in the bill 
that need some fixing. Right? The lack of dollars creates some 
problems, but there are some other things that need fixing on 
the standards, testing, AYP and the effects there.
    And, Mr. Russell, in a special school, as we have two 
special schools for severely cognitively handicapped people, we 
want to make sure they get the very best education possible, 
but at the same time realize that they aren't going to be able 
to pass probably the tests that the students in a regular 
setting with the regular cognitive ability, and we have to 
address that.
    I wrote Michigan's special ed bill, and I wrote a rather 
rigid one. We wrote that even before 94-142, the federal bill. 
And I put in the age, ages zero to twenty-six. That's why you 
have the twenty-six. I put that in. The federal law is just 
twenty-one.
    But do you think that we should really take a much closer 
look at the type of children that you educate in those two 
center schools you have? What all would you want us to change 
to address those students who have very special needs, very 
special problems?
    Mr. Russell. Well, I think, as I said in my testimony, 
we're very pleased that one of the subgroups of our students 
with disabilities, one of the real benefits that has occurred 
with No Child Left Behind is it has not left out students with 
disabilities for us to be accountable for their success in 
school, and I think that's one of the best aspects.
    But I also see as an issue that it's pretty unforgiving of 
the kinds of issues our young people have in terms of how they 
take tests, how they respond. Even with modifications and 
accommodations that are made our students very often we can't 
respond to that testing situation. And I think that instead of 
having rigid requirements of one percent or two percent, those 
kinds of things, we've just got to be more flexible and develop 
a system that recognizes that how our students learn and how we 
will be accountable needs to be more individualized.
    And I mentioned earlier about the growth model. I would be 
pleased to look at measuring how individual students progress 
on their IEPs and be accountable that every single student 
makes progress than set some sort of arbitrary standard that is 
based on grade expectations, third grade, fourth grade, or 
whatever.
    And I think again the problem is is that for many students 
with severe disabilities they just don't fit what was intended 
by No Child Left Behind. And so I think, I think that we need 
to leave it to states to find a way. We have MiAccess, we have 
an alternative curriculum that works in the state of Michigan. 
My staff worked towards that and towards our students 
accomplishing their goals and objectives. But I think that's 
what we should be accountable for. Because it just doesn't work 
for us to be accountable for some measurable standard. That's 
what I would change.
    Mr. Kildee. And I think that we in Genesee County are proud 
of those two centers, too, because we really have exerted 
ourselves. I've always demanded the IEPs be extremely 
important. And sitting down with the parents and the teachers, 
that's extremely important, and we want to maintain that. But I 
want to work closely with you. I know Mr. Horwich has been out 
visiting at the center. I want to come out again. It's been a 
few years.
    Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman.
    And, Mr. Russell, let me just say that it's a pleasure to 
interact with one who is expert in the areas of individuals 
with disabilities.
    The most emotional experience I think I've ever had in 
education was speaking at an eighth grade graduation of a 
school that served the severely handicapped, and to see these 
young people in their wheelchairs with special apparatuses, 
with speech aids, but how by the time the graduation ended 
there wasn't a dry eye in the whole place, and it was just 
great to see.
    Another area, though, of special ed that I have some 
interest in and concerns about is the fact that every school 
district that I've looked at in America, the highest number of 
students in special ed are African-American boys. And is there 
anything that this district is doing in particular to look at 
that issue as it evaluates its system and looks at the 
requirements of No Child Left Behind.
    Mr. Russell. Yes, Congressman. We are working with the 
Michigan Department of Education, and this is probably a good 
example of using the data as a self-assessment and perspective 
of saying--and it's difficult for communities to understand 
this, and even experts. We struggle with disproportionality and 
making sure that students who are identified in special 
education are proportionate to the participation of all groups.
    But I also believe, too, that the answer to this is in 
those interventions that are available in general education for 
students who are having problems with learning. And this is 
another area that concerns me in terms of response to 
intervention, making eligibility for special education not just 
be the only solution to learning problems, but in fact that we 
have the kinds of interventions that some of the panel up here 
has talked about so that we in fact prevent special education 
for students with mild impairments, or issues with reading and 
computation, and so on.
    And so I think that's the secret. And where I think you see 
the lack of interventions in general education is where also 
you see some issues with disproportionality. Because if special 
education is the only solution to learning failure you will 
have a high rate of eligibility for kids in special ed.
    And that's the issue that I think you're talking about. And 
I don't think we have enough data now to say this across the 
board, but many of us suspect that those districts that are 
really struggling with disproportionality are districts that 
are struggling with providing interventions other than special 
education is requiring.
    So, yes, we're working very hard at that, and it's a 
national issue as well, as you know.
    Mr. Davis. Actually I was pleased that last year I think 
the committee included some language that I was interested in 
suggesting that any district in the country that had this kind 
of disproportionality would have to submit a statement to the 
Secretary of Education acknowledging the existence and also 
indicating what they propose to try to do about it, and what 
they propose to do to try to better understand it so that if 
there were factors contributing that could be dealt with then 
they could do so.
    Quickly I have another point. I was intrigued by the fact 
that, Mr. Burroughs, that you had taught the fourth grade.
    Mr. Burroughs. Yes, sir.
    Mr. Davis. And the question goes to Mr. Solis. I am 
convinced, Mr. Solis, and it's a theory, that one of the 
reasons that so many African-American and Latino boys drop out 
of school at an early age is that many of them never see a male 
of their racial or ethnic group in early education efforts. 
Whether it's at home or whether it's at school they've never 
seen a man reading a book or opening a book of their own racial 
identity or ethnic identity, and consequently by the time 
they're third or fourth grade they have pretty much decided 
that education is a woman thing, or a female thing, or a girl 
thing.
    How would you respond to that in terms of the numbers of 
African-American and Latino men who are actually teaching in 
early childhood education programs?
    Mr. Solis. I would concur with your statement. I'm trying 
to think of Latinos that are actually teaching. I can think of 
female Latinas that are teaching here in the Flint Community 
Schools. I think we have one gentleman at Southwestern, and I 
think we fortunately have one assistant principal now. But 
other than that there haven't been a lot of Latino teachers, 
and I think not having that has an impact in terms of not 
having male role models, and I believe it holds true for the 
Hispanic community also.
    Mr. Davis. Thank you very much. Because I believe that we 
could use No Child Left Behind and approaches to try and get at 
some of the problems in a way that's a little different than 
punishing districts, punishing schools, shutting down schools, 
bringing in all new personnel, putting schools on lists, and 
failure lists and watch lists that I'm not sure really does 
much, but I think if we could increase some of the programmatic 
activities such as that we'd do much better.
    Mr. Solis. I agree. And I'd like to make just one other 
statement, too. Because the large population are limited 
English proficient, and with that compounded that we don't have 
male role models there is a need for additional bilingual 
teachers, ESL teachers. And I happened to travel to Scottsdale, 
Arizona a couple years ago in an attempt to recruit--
Congressman Kildee also worked with us in terms of going to 
Texas and working with Texas and Puerto Rico. One of the major 
areas in which it's very difficult is to attract bilingual ESL 
teachers. And as I mentioned earlier, we have approximately 600 
LEPs. Now, they're not solely Latinos, there are other 
languages, but I think that has a major impact on our children 
being able to succeed also.
    Mr. Davis. Thank you very much. Thank, Mr. Chairman.
    Mr. Kildee. Thank you, Mr. Davis.
    Mr. Burroughs, you mentioned I think it was a young female 
student who you wanted to participate in this special reading 
program but were told that, no, she couldn't because she 
wouldn't do well enough to change the score of the school. 
There's something fundamentally wrong with that, isn't there.
    Mr. Burroughs. Yes, there is. But you have to look at--and 
I'm not condoning this practice at all, because it's very 
insulting to hear that story that I just told you. But 
districts are underneath pressure sometimes to pass the state 
MEAP test in Michigan--but we can take other states, they have 
the same test--so they'll dwell on students that are close--
Okay?--to raise them up to pass that test, you know, so the 
district or that school will look better standing.
    Now, this child that's so far behind, I guess we've kind of 
thrown that child away. And that's not what that reading 
program was designed for. And that's what's upsetting to not 
just teachers, administrators. It's how the system has kind 
of--the pressure is to pass that test. Okay? So they'll take 
those efforts and they'll put it on those children that are 
close.
    Mr. Kildee. The principal and the teacher are really geared 
to make sure they pass that test.
    Mr. Burroughs. You're underneath the gun to pass that test 
because that's how you're basically evaluated as a successful 
school. But we failed that child. And we have many of those 
children. We fail that child.
    Mr. Kildee. And that pains me, that really does. I'm glad 
you mentioned that particular case, because sometimes we think 
so generically we don't think specifically right to the 
individuals out there.
    You know, we have AYP, Adequate Yearly Progress, and we're 
talking about growth models, and we have some pilot studies out 
there and growth models now. With growth models you have to 
keep data, transferable data on individual students. Do you 
think we should expand at least the pilot studies and see how 
growth models can supplement or maybe be used instead of AYP? 
Any comments on that?
    Mr. Solis. Chairman Kildee, I agree that we need to find 
growth models to accurately assess our growth and not be 
penalized because students did not, on that day they took the 
snapshot of that child's academic performance. So I think there 
needs to be an increase in pilots.
    Once again to Mr. Burroughs' point, we have children, 
because of the political pressure to pass these tests we were 
looking at--I call them the bubble children. They're right 
there on the bubble trying to get them over. But those that are 
the high-risk students, those that are the furthest behind, the 
attention hasn't been there because they were trying to make 
that accreditation at the time. So I think growth models would 
help solve part of that.
    Mr. Kildee. Mr. Tilley, you mentioned reforming the HOUSSE 
process. HOUSSE is a--it's how you evaluate teachers whether 
they're qualified. It means High Objective Uniform State 
Standards of Evaluation. And we have used the HOUSSE method in 
Michigan. I can recall right after No Child Left Behind we 
might have a crackerjack government teacher, but found out that 
that government teacher had majored in history, but fifteen 
years ago, twenty years ago said ``Can you take this government 
class?'' and he turned out to be just a crackerjack government 
teacher, but he didn't technically meet the standards to be 
qualified in that, and HOUSSE may have helped there.
    Can you tell us how we can, keeping the term qualified 
teacher, how we could use HOUSSE more to help some of those 
people who have proved themselves to be qualified in their 
field, even though technically in their credentials they may 
not be.
    Mr. Tilley. First of all, the simplest form--the simplest 
answer to that would have been a simple grandfather clause. 
That would have been the easiest way to solve that problem. 
Teachers that have been teaching that subject matter over a 
period of years should automatically be grandfathered in to 
continue to teach that class.
    I've seen several of my colleagues, probably the best math 
teacher Bay City schools ever had was a PE major, and she 
taught math for 34 years and was forced into retirement because 
she did not want to go through the HOUSSE process which would 
have taken a lady, now, mind you that has taught math for 
almost that entire time period of 34 years now has to go and 
prove herself in a--I mean, it's an overwhelming task to get 
all the information you need to do the HOUSSE process. It's two 
or three months of solid work to go back and document all the 
meetings that you were at, all the professional development you 
did, all the education you did; whereas, through the years the 
school districts through their evaluations, the states through 
their recertification, where are you doing that? It was a 
simple solution to just say those people have the experience 
and they have the time in the classroom, they should be 
grandfathered in.
    And I think that needs to be taken into account, because I 
would assume through the years that certifications are going to 
become more and more stringent, that those standards are looked 
at or at least the grandfathering is looked at for teachers 
that are in other subject areas that are currently not required 
to be in their major.
    Mr. Kildee. And I think you and I would agree that we want 
to avoid what we had in California, maybe still to a great 
extent, we had 25,000 teachers in California who are 
uncertified, and that's why we put in the bill we wanted 
qualified teachers. And Mr. Miller, the chairman of the full 
committee, feels very strongly about that.
    But I know I've seen teachers right in Bay County who were 
in the field of government who were really great but 
technically did not meet the certification standards there.
    So we'll look at that, looking at two things, maintaining 
quality by recognizing there's various ways to achieve that 
quality.
    Mr. Tilley. And that's why you go through--you know, we 
have annual evaluations as teachers and those are the things 
that, you know, the administration does to evaluate the staff 
member, and those are the things they should be using and have 
been in a big portion of it as far--and also the 
recertification at the state level when you have to reapply for 
your certificate and pay for your license that the state's 
saying you're qualified, you're school is saying you're 
qualified, now all of a sudden legislation comes along and says 
after 34 years and everybody else saying you're qualified, 
you're not. Now you have to prove to us that you're qualified 
by doing all this--and it's exorbitant. If you've ever seen the 
HOUSSE process itself, it's huge.
    Mr. Kildee. Thank you.
    Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman.
    Ms. Debardelaben, let me ask you what motivated or 
stimulated you to be so actively involved in education from a 
lay person perspective? I notice that we all agree that 
parental involvement and participation, all of this is 
important, but I notice it comes at the end of almost 
everything that I see.
    I mean, it's kind of like oftentimes it's an afterthought 
of whoever is doing whatever they're doing, it's ``Oh, by the 
way, we've got to make sure that we've got parental 
involvement. We've got to have community involvement.''
    And I was thinking of my own childhood that the greatest 
motivated time that I ever experienced as a child was my mother 
coming up to school one day when I had decided that I was upset 
about something in terms of the teacher not giving me a speech 
at school closing. And I had gone home and said, ``I'm not 
going to the graduation, so you don't have to worry about 
buying me anything,'' and all of that.
    And she said, ``Why not?''
    I said, ``Well, Miss Smith didn't give me a speech.''
    And she says, ``Well, I'll be up there tomorrow to find out 
why.''
    And when my mother walked in the door, after having walked 
about eight miles to get there, I mean, I felt like I was just 
on top of the world, that there was nothing that you could do 
to deflate my ego or how I felt.
    So what brings you to this?
    Ms. Debardelaben. My parents were very involved with me and 
my schooling, me and my brother's schooling.
    I look at my kids and they want me to be happy with them 
all the time. When they bring home their report cards--you 
know, like my one, he's having trouble. But when I go into the 
classroom and speak with the teacher about him having trouble, 
he's more happy with that. Even if he's getting an E he's more 
happy that I came into the classroom and I talked to his 
teacher and, ``Well, mommy, what did the teacher say?''
    I say, ``Well, she says you're having trouble.''
    You know, he said, ``Well, are you going to be there 
tomorrow with me and sit next to me while I'm trying to read 
this book even though, you know, I'm having trouble?''
    That makes kids really happy that their parents are coming 
into the classroom and seeing that they're talking to their 
teachers.
    And like if a child--I have another--a niece that's having 
trouble with her teacher. For some reason they just clash. But 
when my cousin goes into the classroom she feels more 
comfortable and her mind is on learning instead of thinking 
about, ``Well, what is this teacher going to do to me today?'' 
or ``Is the teacher going to kick me out today?''
    You know, so I think that when I look at my kids and they 
say, ``Just come to the school, mommy. Just come and see what's 
going on at school,'' that I just get up and go.
    You know, I want my kids to be happy at school, and if 
they're happy at school then they can learn. If they're unhappy 
then they're angry. They're sitting around in the corner 
pouting instead of listening to what the teachers are saying.
    So when I go into the classroom I can talk to their 
teachers one on one, talk to the principal, who at our school 
is a very good principal, and he's an African-American male, 
and he--and the children just like that.
    Even the other children whose parents aren't coming in, 
they see me coming and they're like ``Mrs. Debardelaben's here, 
so, you know, everything's okay.'' So that's what pushes me to 
go and be involved in their school.
    Mr. Davis. Well, I just believe that that's very, very 
important, and may be difficult to measure in terms of where 
people put that, because we really don't put resources, in many 
instances, into it to make sure that we do all in our power to 
attract people and have them come.
    And, Mr. Burroughs, you raised a concept that I find 
interesting, and that's how we pay our taxes and how we 
allocate money. But this notion of beginning to look at things 
from the vantage point that one community may have been a donor 
community at one time and now might be categorized or 
classified as a disadvantaged community, and so when we develop 
certain kinds of programs to try and help local governments, 
local areas and states to meet needs, that that's a 
consideration that we ought to take into account. So I find 
that intriguing, and I thank you for raising it.
    Mr. Burroughs. Thank you, sir.
    Mr. Kildee. Since we're on funding, it's interesting. You 
have to pay for education, and that includes when the federal 
government mandates you should pay for education. And there's a 
direct relationship. Mr. Davis and I both voted against, about 
five years ago, a two trillion dollar tax cut. Two trillion 
dollar tax cut. Which is in effect. It passed. A trillion 
dollars, that's a thousand billion; one trillion dollars, a 
thousand billion.
    If we just made that a little less--I voted against the 
whole shooting match, as did Mr. Davis, and we spoke against it 
and told in no certain uncertain terms what we thought about 
it. But, you know, if they had just made it a little less than 
that we could have found the $70 billion to fully fund No Child 
Left Behind. It would have been just a little tweak out of that 
$2 trillion. But they wouldn't give in.
    And I predicted, as Mr. Davis predicted, that programs that 
are so important, including a brand new program, a brand new 
mandate, was not going to have the revenue to fund it.
    Beware of those people, by the way, who say ``Oh, I'm for 
education. I support education. I support education,'' but they 
vote to take the $2 trillion away, right? Beware of those.
    They remind me of people who go to a fine restaurant 
because they want the best, they want the best education, they 
go to a fine restaurant with their friends and they order the 
very best on the menu, the finest, and when a waiter comes by 
with the check they're bending over and tying their shoe 
letting someone else pick up the tab. We have a lot of shoe 
tiers in Congress.
    And that's one of the many reasons that we're not funding 
No Child Left Behind, because they took $2 trillion of revenue 
away. And we're just asking for 70 billion would fully fund it, 
70 billion over five years.
    So just be beware of those people. I just had to say that, 
because I get very frustrated. People think there's no 
relationship between revenue and spending. There's a great 
relationship. Probably should get ways and means together with 
the appropriations committee so they could talk to one another. 
They'll find out if they're going to spend they've got to find 
the dollars to spend.
    One other question here. Mr. Solis, you talked about the 
set-aside for a public school of choice and the supplemental 
educational services, one of the effects of their not meeting 
the AYP, the effect that might have on the rest of the school 
programs.
    Mr. Solis. As current law requires we must set that set-
aside, a total of 20 percent of our allocation, which is 
approximately $3 million. So those dollars don't fly--they're 
not driven into the building. We have to set it aside.
    So, therefore, if we look back--and I had one--Miss Joyce 
Webb did a research paper on allocations, and if we were to 
just look at the set-aside for this current year we would be 
below the 2001-2002 funding level, or at that level without any 
increases for inflation.
    So I understand--we understand the importance of having 
some options for parents. We're not opposed to that. But the 
amount of set-aside if they were to totally be utilized would 
not have increased our allocations at all for the last five 
years, or it would be minimal, which would not take into 
account inflation or step increments.
    The other issue with set-asides is the Michigan Department 
of Ed was very generous in terms of--because there is a limit 
in terms of carryover. The reason we have exceeded carryover in 
the last three or four years had been directly attributed to 
money not utilized for SES programs. And so until the U.S. 
Department came in and cited the Michigan Department of Ed we 
had an open enrollment.
    So there's two sides to this set-aside issue. One is we 
have to set it aside at the beginning, and then when we had 
open enrollment, at the end of the year, because there were 
children that did not opt to take advantage of the SES 
programs, there was a large portion of money.
    So there needs--we're recommending that there be some 
flexibility. For example, what the Michigan Department of Ed 
had allowed was if you could directly attribute the--exceeding 
the 15 percent was directly attributed to funds not used for 
SES programs then that would not require you to use your one-
time waiver.
    Also, just so you're aware, I think Flint has done an 
outstanding job in working with the SES providers. We had a 
vendor fair, and then we have parent fairs, and we do direct 
mailings, and I give credit to Dr. Lee and Lucy Jenkins that 
they've done an outstanding job.
    I was recently reading an article in one of the education 
magazines talking about the SES programs. There isn't anything 
in that article that Flint hasn't done.
    Once again, you know, when you have that large pool of 
money it does take away from monies that are driven to 
buildings. But on the positive side of that set-aside, when we 
had a deadline we were able to reallocate some of those funds 
for the reform model extended day program, which is after 
school, and the extended year.
    But there are some issues with that large amount of money 
being required to be set aside.
    Mr. Kildee. That chart you referred to, if you haven't 
already done so if you could give that to counsel, we'll make 
that part of the record.
    Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman.
    We were talking about money. We know that money is very 
difficult to come by. I mean, especially if we are funding a 
war and spending billions each month, and then we've given the 
wealthiest one percent of the population part of their money 
back in terms of tax breaks and tax cuts. So you can't have a 
discussion hardly about anything without the impact of money 
coming into the equation.
    I guess I'd like to ask if each one of you could perhaps 
share one thing that you might be able to do to improve 
education or improve No Child Left Behind that may not cost any 
additional money. That is, if you can think of anything.
    Mr. Solis. The sanctions are very serious in terms of 
corrective action and restructuring, and with that money is set 
aside to provide that additional support. If those dollars 
would not have to be set aside for school improvement and 
flowed into the districts to determine how to use those to 
improve, that would be beneficial. No cost, no additional cost 
to the taxpayer. But once again, it would allow for the 
districts to have that money.
    I think the teachers, the administrators know what we need 
to do to improve student achievement here at the local level. 
But right now it's not administered that way.
    Mr. Davis. Anyone else.
    Mr. Russell. I would just suggest that we need to continue 
the flexibility for communities to use the funds that are 
available for, again, early interventions for students.
    You know, special education, I'm very proud to be a special 
educator. I've been one for thirty years. But I will say this, 
that the more kids we can prevent coming into special education 
the better that the whole system will be. And I think that 
allowing communities to allocate resources to help kids early 
on, get the help before failure, before those young men or 
women get discouraged about school would be one thing that I 
think would save money, in fact, in the long run, but certainly 
would at least be cost neutral.
    Mr. Burroughs. Mr. Davis, it's very hard for me to think of 
anything that's not connected to money at this time because I'm 
working for a district. We've cut the fat, we've cut the bone, 
and now we're in the process of starting to cut some vital 
organs. So it's very difficult for me at this time.
    Ms. Debardelaben. The only thing I can think of that 
wouldn't cost as much money is to try to get the parents more 
involved.
    I know at my children's school they do have different 
organizations, and actually the parent participation has picked 
up a lot. But I live in a community that is poverty stricken, I 
guess you'd say, and trying to get the parents to come out to 
the kids' school, they're just not doing it. And if we can get 
the parents to come in and see that the No Child Left Behind is 
basically trying to help their children to succeed then maybe 
the whole program would start to work better.
    Mr. Tilley. I also tend to agree with my colleague down 
here that I don't know if there's anything really at this time 
that won't cost money to really improve No Child Left Behind. 
But the long-term benefit of putting funds into early 
elementary and elementary before school and after school 
programs, and I firmly believe, you know, building self--having 
middle school kids and their self-esteem and their self-
awareness, if there were courses set aside to teach them, ``You 
know, my body's changing. This is who I am and going to be.'' 
Because they're so consumed with what they look like to their 
next-door neighbor they don't care what they have to do on a 
math test, or in a math class, or in a science class, or 
anything else. And if some of those programs are developed in 
the middle and the elementary school, and maybe even carry into 
the high school, that in the long run it would benefit all of 
us, it would save us money in the long run, because those kids 
would stay in school, they'd become more productive citizens, 
they'd become tax paying citizens and generate more revenue and 
the money would come back to us all.
    Mr. Davis. Thank you very much.
    Mr. Kildee. You know, your comment is very good. It's 
pretty well a given now that a person learns to read 
kindergarten through third grade, and after that they read to 
learn. If they haven't learned to read by the end of the third 
grade, many may wind up in your special ed who really shouldn't 
be in special ed, right? And I think that's really what--those 
K through third grade, it's so important that that's where we 
should really invest and make sure they learn to read. Because 
you see kids who wind up just stumbling along, or winding up in 
a special ed program. Which is very expensive, right?
    Mr. Russell. That's right.
    Mr. Kildee. It would be a good investment. It would be not 
only morally right, but fiscally right----
    Mr. Russell. That's correct.
    Mr. Kildee [continuing]. That we do that.
    Do you have any further questions?
    Mr. Davis. No, I have no questions, Mr. Chairman, and would 
just like to again thank you and thank the members of the 
panel, the witnesses who have come. I have been absolutely 
stimulated by your questions and by your expressions and by the 
concerns that you have raised, and I can understand why your 
community is a community of the future and how you have 
withstood some of the challenges that you have obviously faced 
as a community. And I only hope that those of us in Washington 
can take your experiences and then transform or translate them 
into action so that America does in fact continue to be the 
America of tomorrow and not the America of yesterday.
    So I thank you so much, and it's just a pleasure being 
here.
    Mr. Kildee. Thank you, Mr. Davis. And let's give Mr. Davis 
some applause. He's just an extraordinarily good Member of 
Congress. I've been there thirty years. He's been there since 
1995. I remember when he came in he's added to our committee, 
he's very faithful in attendance, and loves the human race, 
loves children. I always say certain people, they have a good 
head--he's very smart--but a good heart, too. And that's very, 
very important. Especially those who seek public office, I 
think.
    You know, today demonstrates something I've known for a 
long time, but sometimes you have to realize it and make it 
real in your life, that all the wisdom does not reside in 
Washington, D.C., it's out here.
    This has been one of the finest panels I've heard in a long 
time, long time. We've had high rollers in Washington 
testifying, you know, with all the awards they've received, and 
I mean really high rollers, well known around the world. And 
they were good. But I'll tell you, I've learned more about what 
the needs of children are and how No Child Left Behind should 
respond to those children from this panel right here, and I'm 
not exaggerating at all. And I think, Danny, Mr. Davis, would 
agree with that. This has been extraordinary.
    And again, the audience, your presence here again, anyone 
who would like to submit something for the record, get that to 
Mr. Horwich, and let him know your name so he'll accept--if you 
have it with you, just leave it with him, but you'll have seven 
days in which you can get it to him, and it will become a part 
of this record along with those who were the official witnesses 
here.
    So I again thank all of you, the witnesses, and any member 
may say--any member of the--I have to say this just for the 
record, too. Any member of this committee not here today may 
also have seven days to submit additional testimony. And with 
that this hearing is adjourned. Thank you.
    [Additional statements entered into the record by Mr. 
Kildee follow:]

 Prepared Statement of Curtis Decker, Executive Director, the National 
                       Disability Rights Network

    The National Disability Rights Network (``NDRN''), is the 
membership association of protection and advocacy (``P&A'') agencies 
which are located in all 50 states, the District of Columbia, Puerto 
Rico, and the territories (the Virgin Islands, Guam, American Samoa and 
the Northern Marianas Islands). P&As are mandated under various federal 
statutes to provide legal representation and related advocacy services 
on behalf of all persons with disabilities in a variety of settings. As 
a network, the P&As provide free assistance to over 20,000 families per 
year in education cases involving the IDEA and Section 504 of the 
Rehabilitation Act of 1973. P&As have a unique, significant and long-
term interest in laws that will affect the rights of students with 
disabilities. The P&A system comprises the nation's largest provider of 
legally based advocacy services for children and adults with 
disabilities and their families.
    Below are preliminary recommendations for the reauthorization of 
NCLB. There are other areas of the statute that deserve attention and 
require revision. However, NDRN has focused on five major issues at 
this time. NDRN is available to provide continued consultation during 
the reauthorization process and is more than willing to provide 
additional comment and suggestions regarding changes to the statute 
throughout the reauthorization process.
I. Supplemental Educational Services:
    The provision that provides supplemental educational services to 
students in schools that have failed to make Annual Yearly Progress 
(AYP) must be adequately resourced for all students, including students 
with disabilities. Currently, based on anecdotal evidence, services are 
often limited for all children, but especially limited--if available at 
all--for children with disabilities. This is particularly true in rural 
areas and impoverished urban areas. The Commission on No Child Left 
Behind (hereinafter Commission) reports that there is a lack of 
meaningful evaluation of providers and lack of coordination among 
providers and public school teachers. In order for the Supplemental 
Educational Services (SES) to benefit children statutory changes are 
necessary. The statute must require the State and Local Educational 
Agencies to locate and identify private providers who can meet the 
needs of students with disabilities and must ensure proper 
communication among those providers and school personnel. Specifically 
the statute should be amended as follows: (new language in bold and 
italics)
    Sec. 1116(e)(4) ``(4) STATE EDUCATIONAL AGENCY RESPONSIBILITIES.--A 
State educational agency shall----
    ``(A) in consultation with local educational agencies, parents, 
teachers, and other interested members of the public, promote maximum 
participation by providers throughout the state, including providers 
capable of providing services to students with disabilities, to ensure, 
to the extent practicable, that parents have as many choices as 
possible,
    ``(B) develop and apply objective criteria, consistent with 
paragraph (5), to potential providers that are based on a demonstrated 
record of effectiveness in increasing the academic proficiency of 
students, including students with disabilities in subjects relevant to 
meeting the State academic content and student achievement standards 
adopted under section 1111(b)(1);
    ``(C) maintain an updated list of approved providers across the 
State, by school district, ensuring widespread geographic distribution 
of needed providers throughout the state, from which parents may 
select;
    Sec.1116(e)(5) ``(5) CRITERIA FOR PROVIDERS.--In order for a 
provider to be included on the State list under paragraph (4)(C), a 
provider shall agree to carry out the following:
    ``(A) Provide parents of children receiving supplemental 
educational services under this subsection and the appropriate local 
educational agency with information on the progress of the children in 
increasing achievement, in a format and, to the extent practicable, a 
language that such parents can understand.
    ``(B) Ensure that instruction provided and content used by the 
provider are consistent with the instruction provided and content used 
by the local educational agency and State, and are aligned with State 
student academic achievement standards.
    (C) Ensure that instruction is provided to students with 
disabilities who are entitled to services under the Individuals with 
Disabilities Education Act (IDEA) and students entitled to services 
under Section 504 of the Rehabilitation Act
    (Section 504) receive appropriate services and accommodations 
consistent with the student's individualized education program under 
section 1414(d) of IDEA and consistent with a student's 504 plan under 
29 U.S.C. sec.794 ( Section 504).
    ``(C)(D) Meet all applicable Federal, State, and local health, 
safety, and civil rights laws.
    ``(D) (D)Ensure that all instruction and content under this 
subsection are secular, neutral, and nonideological.
II. Highly Qualified Teachers/ Highly Qualified Effective Teachers.
    A. Professional Development
    The Commission report notes that there is concern about the 
qualification of general education teachers teaching special education 
students. As the Individuals with Disabilities Education Act mandates, 
more and more students with disabilities are receiving services in the 
general education environment and rely more heavily on general 
education teachers for their education. As such, it is important that 
both special education and general education teachers have the 
necessary training and skills to successfully and effectively teach 
students with disabilities in every environment.
    The Commission seeks a change to the highly qualified teacher 
qualifications, which require that a teacher become a highly qualified 
effective teacher (HQET). The concept, though good fails to guarantee 
that teachers will receive the professional development they need to 
ensure that students in special and general education get the 
instruction they need.
    NDRN recommends that when evaluating teachers under the HQET 
criteria, the statute should mandate that all teachers be required to 
demonstrate that they can effectively teach students with disabilities. 
Further, the professional development that is triggered by the value-
added methodology as well as other mandated professional development 
under NCLB must include training teachers how to adapt the general 
education curriculum for children with disabilities, how to use 
research based practices, and provide differentiated instruction, 
assistive technology supports, positive behavior supports and other 
inclusion techniques. Further, adequate federal funding must be 
provided to the states to properly institute high quality professional 
development.
    The suggested statutory language below is designed to fit within 
the confines of the current statutory structure. It is anticipated that 
NCLB will be significantly amended in regard to the Highly Qualified 
Teacher (HQT) requirements. If so, the recommended language may need to 
be applied to a different segment of the HQT section of the statute. 
NDRN is available to revise or provide additional suggestions as the 
reauthorization process continues. The most important aspect of the 
recommended language is to ensure that all teachers, both special 
education teachers and regular education teachers are trained on how to 
provide appropriate instruction in an inclusive environment for 
students with disabilities. Preferably this would be a professional 
development requirement for all teachers.
    This definition of professional development should be included in 
section 9101 (34) as follows:
    Sec. 9101(34)(A)(xiii) provide instruction in methods of teaching 
children with special needs. Instruction of teachers shall include 
training about: adapting the general education curriculum for special 
education students, using research-based practices, differentiated 
instruction, assistive technology supports and services, positive 
behavior supports, and other methods and practices that promote the 
inclusion of children with disabilities in the academic and non-
academic aspects of the school.
    B. Teacher Preparation
    In addition to professional development for teachers while they are 
engaged in teaching, there must be training for teachers at the 
university and college level that ensures all teachers are prepared at 
the front end to teach a variety of learners, including children 
identified with disabilities under the Individuals with Disabilities 
Education Act. As part of the university or college curriculum there 
must be a requirement that teachers learn how to teach using Universal 
Design and learn how to adapt the general education curriculum for 
special education students. Further teachers must learn about peer-
reviewed researched methods of teaching, differentiated instruction, 
assistive technology supports and services, positive behavior supports 
and other methods and practices that effect successful inclusion of 
students with disabilities in the classroom.
    NDRN NNNDNRrecommends that NCLB be amended to include the following 
requirement: As part of a state's program approval process, 
institutions of higher education shall be required to establish that 
their teacher preparation programs are designed to provide all teacher 
candidates, both general and special education, with the competencies 
necessary to teach effectively students with and without disabilities.
III. Accountability
    One of the cornerstone concepts of NCLB is to ensure that all 
students are included in assessments at grade level standards. 
Currently the regulations to the NCLB statute permit the states to 
count 1% of students with severe cognitive disabilities who take 
alternative assessments and pass those tests as part of Adequate Yearly 
Progress (AYP). Further, a U.S. DOE policy and pending regulations 
permit states to count up to 2% of testing for students who take 
assessments based on modified Academic Achievement Standards, toward 
AYP as proficient.
    NDRN is not currently suggesting a statutory change. We believe 
that these adjustments should continue to be made through the more 
flexible policy or regulatory process. However, NDRN has concerns about 
modified assessments overall, and filed comments to the U.S. Department 
of Education during the earlier regulatory process. (attached and 
available at www.ndrn.org) NDRN wants to ensure that schools, teachers 
and states remain accountable for the progress of all students 
including students with disabilities.
    The purpose of the Department's proposed regulations is to assist 
States in meeting Adequate Yearly Progress (AYP) and avoid becoming a 
school ``in need of service.'' However, the U.S. Department of 
Education and the U.S. Congress when reauthorizing NCLB must focus on 
ensuring students with disabilities receive high quality instruction 
with appropriate accommodations in the least restrictive setting, while 
holding school personnel accountable to the educational progress of all 
students.
    The Department must ensure the regulations encourage States and 
Districts to strive to teach children to their highest potential rather 
than use the modified assessments as a crutch that relieves 
accountability requirements. To the extent, Congress intends to modify 
the current statute, any language regarding modified testing must 
ensure that states cannot use the testing as an escape hatch to 
providing highly qualified and effective teaching to students with 
disabilities. Further, any changes must make clear that the child's 
educational needs, including testing needs and levels are driven by the 
IEP team as required by the IDEA.
IV. A Government Accountability Office Study.
    The statute provides for students to receive supplemental 
educational services and school transfers when schools fail to make 
adequate yearly progress. In order for these options to have meaning 
for students and to actually assist students who attend failing 
schools, the services must be available and capable of meeting the 
needs of the students. By anecdotal evidence, Protection and Advocacy 
Agencies have reported the inability of students with disabilities to 
receive the type of supplementary educational services they are 
entitled to receive. The reasons for the inability to receive services 
vary. For example, some students, who live in rural areas, do not have 
access to the services needed because the type of provider the student 
needs is not readily available in the rural area. On the other hand, in 
urban areas, although the type of provider the child needs may offer 
services in the area, the number of providers is not sufficient to 
handle the number of students entitled to services.
    In regards to public school choice transfers, information obtained 
suggests that in some urban areas, the choice option for attending 
public schools is severely limited because most of the schools within 
that region failed to make adequate yearly progress. The result is 
students are forced to remain in substandard schools because the 
resources provided to ensure they may obtain an education in schools 
that meet the requirements of NCLB is not available. This problem is 
even more acute for students with disabilities.
    NDRN recommends that Congress ask the Government Accountability 
Office to conduct a study on whether students, including students with 
disabilities in rural, urban and suburban environments are able to 
access the supplemental educational services and public school choice 
options provided by NCLB.
    This report would provide an avenue to determine the barriers that 
school systems face in making services available to students and focus 
on any particular barriers faced by schools to meet the needs of 
students with disabilities. Further, this report would analyze 
information from families about the frustrations they face when 
attempting to secure supplemental educational services and public 
school transfers for their children. The purpose of the report would be 
to provide useful information on the implementation of this part of 
NCLB and provide Congress with background on what changes in the law 
are needed to ensure the promise of leaving no child left behind is 
met.
V.Protection and Advocacy Program for Students with Disabilities.
    Students with disabilities and their parents must navigate the 
complex world of IDEA and NCLB on a daily basis, most without the 
training and resources provided to school personnel to navigate those 
same laws. Advocating for your own child through this maze can be a 
daunting task at best. Dealing with the needs of a child with special 
needs can at times require considerable time and energy. On top of 
providing the daily needs of the child the parents must also learn 
about the child's educational rights and pursue what their child needs 
through the school system. The Protection and Advocacy Systems (P&A) 
across the country provide assistance to these families in need. 
However, P&As must rely on grant funds that are not specifically 
allocated for special education or find other means of funding in order 
to assist children with disabilities in schools.
    Because P&A's generally rely on grant money and not attorney's fees 
in order to represent families, most if not all P&As are willing to 
work through issues with the school district and the parents first 
without seeking due process (which may lead to an award of attorneys 
fees). However, it is becoming increasingly difficult for P&A attorneys 
and advocates to continue to advocate for these students and at the 
same time provide needed advocacy services to other populations of 
people with disabilities. Funds directed for the purpose of advocating 
for children in schools is needed to ensure the protection of children 
with disabilities and their families. Below is recommended language to 
be included in the reauthorized NCLB Act.
Protection and Advocacy Program for Students with Disabilities.
    ``(a) In General.--The Secretary of Education shall make grants to 
protection and advocacy systems for the purpose of enabling such 
systems to address the needs of children with disabilities and their 
families who are negotiating the educational systems.
    ``(b) Services Provided.--Services provided under this section may 
include the provision of----
    ``(1) information, referrals, and advice;
    ``(2) individual and family advocacy;
    ``(3) legal representation; and
    ``(4) specific assistance in self-advocacy.
    ``(c) Application.--To be eligible to receive a grant under this 
section, a protection and advocacy system shall submit an application 
to the Secretary at such time, in such form and manner, and accompanied 
by such information and assurances as the Secretary may require.
    ``(d) Appropriations Less Than $12,000,000.----
    ``(1) IN GENERAL.--With respect to any fiscal year in which the 
amount appropriated under subsection (i) to carry out this section is 
less than $12,000,000 the Secretary shall make grants from such amount 
to individual protection and advocacy systems within States to enable 
such systems to plan for, develop outreach strategies for, and carry 
out services authorized under this section for children with 
disabilities and their families.
    ``(2) Amount of grant.--The amount of a grant under paragraph (1) 
shall be based on the size of the State in which the individual 
protection and advocacy system is located but be not less than $200,000 
for individual protection and advocacy systems located in States and 
not less than $100,000 for individual protection and advocacy systems 
located in territories and the American Indian consortium.
    ``(e) Appropriations of $12,000,000 or More.--The Secretary shall 
make grants during each fiscal year not later than October 1 to States 
as follows:
    ``(1) POPULATION BASIS.--Except as provided in paragraph (2), with 
respect to each fiscal year in which the amount appropriated under 
subsection (i) to carry out this section is $12,000,000 or more, the 
Secretary shall make a grant to a protection and advocacy system within 
each State.
    ``(2) Amount.--The amount of a grant provided to a system under 
paragraph (1) shall be equal to an amount bearing the same ratio to the 
total amount appropriated for the fiscal year involved under subsection 
(i) as the population of the State in which the grantee is located 
bears to the population of all States.
    ``(3) Minimums.--Subject to the availability of appropriations, the 
amount of a grant to a protection and advocacy system under paragraph 
(1) for a fiscal year shall be----
    ``(A) in the case of a protection and advocacy system located in 
American Samoa, Guam, the United States Virgin Islands, or the 
Commonwealth of the Northern Mariana Islands, and the protection and 
advocacy system serving the American Indian consortium, not less than 
$100,000; and
    ``(B) in the case of a protection and advocacy system in a State 
not described in subparagraph (A), not less than $200,000.
    ``(4) Inflation adjustment.--For each fiscal year in which the 
total amount appropriated under subsection (i) to carry out this 
section is $14,000,000 or more, and such appropriated amount exceeds 
the total amount appropriated to carry out this section in the 
preceding fiscal year, the Secretary shall increase each of the minimum 
grant amounts described in subparagraphs (A) and (B) of paragraph (3) 
by a percentage equal to the percentage increase in the total amount 
appropriated under subsection (i) to carry out this section between the 
preceding fiscal year and the fiscal year involved.
    ``(f) Carryover.--Any amount paid to a protection and advocacy 
system that serves a State or the American Indian consortium for a 
fiscal year under this section that remains unobligated at the end of 
such fiscal year shall remain available to such system for obligation 
during the next fiscal year for the purposes for which such amount was 
originally provided.
    ``(g) Direct Payment.--Notwithstanding any other provision of law, 
the Secretary shall pay directly to any protection and advocacy system 
that complies with the provisions of this section, the total amount of 
the grant for such system, unless the system provides otherwise for 
such payment.
    ``(h) Annual Report.--Each protection and advocacy system that 
receives a payment under this section shall submit an annual report to 
the Secretary concerning the services provided to emerging populations 
of individuals with disabilities by such system.
    ``(i) Authorization of Appropriations.--There are authorized to be 
appropriated to carry out this section $16,000,000 for fiscal year 
2008, and such sums as may be necessary for each the fiscal years 2009 
through 2013.
    ``(j) Definitions.--In this section:
    ``(1) AMERICAN INDIAN CONSORTIUM.--The term `American Indian 
consortium' has the meaning given the term in section 102 of the 
Developmental Disabilities Assistance and Bill of Rights Act of 2000 
(42 U.S.C. 15002).
    ``(2) Protection and advocacy system.--The term `protection and 
advocacy system' means a protection and advocacy system established 
under section 143 of the Developmental Disabilities Assistance and Bill 
of Rights Act of 2000 (42 U.S.C. 15043).
    ``(3) State.--The term `State', unless otherwise specified, means 
the several States of the United States, the District of Columbia, the 
Commonwealth of Puerto Rico, the United States Virgin Islands, Guam, 
American Samoa, and the Commonwealth of the Northern Mariana Islands.
    ``(k) Technical Assistance.--The Secretary shall reserve 2 percent 
of appropriated funds to make a grant to an eligible national 
organization for providing training and technical assistance to 
protection and advocacy systems.''.
    The comments and recommendations provided in this document are 
preliminary recommendations given the time constraints to respond to 
the Senate's request. NDRN has an avid and deep interest on the impact 
the reauthorization of NCLB will have on students with disabilities and 
we are available to answer any additional questions or provide 
additional input about specific areas being addressed by the Senate 
when the issues arise.
                                 ______
                                 

   Prepared Statement of Susan Doneson, Teacher, Program Supervisor, 
                          Meridian High School

    Chairman Kildee, I am Susan Doneson, a teacher and program 
supervisor at Meridian High School, in Haslett, MI, and I request that 
the following testimony be included in the record of the April 12, 2007 
Subcommittee hearing held in Flint, Michigan.
    ``No Child Left Behind'' is up for reauthorization and while it is 
difficult to argue with the spirit of this legislation, there have been 
some unfortunate and potentially devastating collateral effects of the 
law as it currently stands in terms of penalizing the very programs 
that exist to support and remediate our most at-risk students in 
Michigan.
    The component of this legislation that most concerns me is the 
assumption that all students should be able to graduate from high 
school in four years. As the law currently is written, high schools are 
penalized if students take more than four years to earn their diplomas; 
the schools often are listed as failing to make AYP (adequate yearly 
progress,) a serious negative label that brings with it various 
consequences. All students who do not graduate in four years are 
counted in the statistics for that high school as dropouts, even if 
they complete their high school educations in an additional semester or 
year.
    While it may be realistic and even desirable to assume that the 
majority of students in the state and nation can complete high school 
in four years, there are compelling reasons why this may not be the 
case for all students, and if ``no child is to be left behind,'' then 
schools that exist to ensure that, in fact, ``no child is left 
behind,'' should be seen as part of the solution rather than part of 
the problem. Meridian High School is an example of an effective 
alternative high school, administered by Haslett Public Schools. For 
more than two decades, we have been educating our most vulnerable high 
school students with more than 70% of our graduates going on to post-
secondary education. I have been with the program since its inception 
as program supervisor/teacher for our award-winning teen parent program 
and also serve as teacher/chairperson of our Language Arts department.
    Students come to Meridian from approximately eleven different area 
school districts for many reasons including pregnancy, substance abuse 
issues, or family chaos to name a few, but there are some 
generalizations that may be said about most of our students.
    <bullet> Most students will transfer to Meridian in the second year 
of high school or later.
    <bullet> Student will already be behind in terms of earned credits 
(average is 1 semester or 3 credits)
    <bullet> Student may come to Meridian having already taken some 
time off from high school (dropped out from previous school)
    <bullet> If pregnant, student may lose some time due to delivery
    <bullet> Attendance has been an issue in prior schools
    <bullet> Student is likely to have been on Special Education 
caseload at some point in academic career and may still be on SE 
caseload
    <bullet> Student is likely to lose some credit at Meridian due to 
poor attendance especially during early semesters with us (old habits 
are hard to break)
    Given these ``pre-existing conditions,'' it is impossible for most 
of our students to earn their diplomas within four years of beginning 
high school since they are already behind before they ever cross our 
threshold. In a sense we are being penalized for the failures of their 
original high schools to meet their needs rather than the educational 
program we provide. There has to be a better way to compute the 
progress of these at-risk students and hold alternative high schools 
like Meridian accountable for the educations we provide.
    But, in thinking more about five-year graduation plans, I wanted to 
describe a scenario we sometimes encounter @Meridian--one that also 
results in a five-year graduation plan for a student--but for very 
different reasons. For this purpose, I will describe an actual student 
who graduated in June '06 with a full ride to Lansing Community College 
as well as an acceptance to Kettering. He is attending LCC, doing well 
and plans to transfer to Kettering after two years to complete a four-
year degree.
    Z. was a very shy and quiet young man when he entered MHS in his 
3rd year of high school. His schooling to this point had been mostly in 
Christian schools but also involved some years of home schooling. He 
did not mix well with other students but related better to staff. Z. 
was obviously bright and capable but required extra time to complete 
his work. He qualified for special education services as ADHD.
    When he came to us Z. had earned 6 credits in his first year of 
high school, second year, 3 credits earned (cumulative total: 9 credits 
earned); He came to us during his third year of high school and earned 
6.25 credits (cumulative total: 15.25) During his fourth and what 
should and could have been his final year in high school, Z. decided to 
attend the Capital Area Career Center to study in two areas of great 
interest to him: Drafting and Computer Programming. He delayed taking 
two district-required high school classes so he could complete the 
second year of the Career Center Drafting course even though it meant 
he would have a fifth year in high school We knew that this would mean 
that Z. would be counted as a drop-out in the Meridian High Schools 
stats but we also knew that a five-year high school plan was definitely 
in Z.'s best interest, academically, emotionally and socially. As we 
expected, Z. ``bloomed'' in those last two years of high school. He 
participated in a wide variety of extra curricular activities--
something he had shunned his first year at MHS. He was on several 
sports teams, played on the chess team, and attended a week of CLOSE UP 
in Washington, D.C. with five other students and a teacher. During his 
fifth year he was employed as a draftsman on the recommendation of his 
Career Center teacher and got rave reviews. He is still working part-
time for that employer while attending LCC. During that fifth year in 
high school, Z. also dated for the first time. As one of his teachers, 
I truly believe that Z. needed that extra year of high school to mature 
and be confident enough to face the challenges of post secondary 
education and we were happy to provide it. In our eyes he is a success 
story, yet, in terms of AYP, he is counted as one of our dropouts. 
Ironic, isn't it?
    ``No Child Left Behind'' holds schools accountable and certainly, 
as an educator, I have no problem with that concept. But it is also 
important to remember that ``one size does not fit all'' in terms of 
education and the legislation as it is currently written seems to 
ignore that fact.
    Reauthorizing NCLB with the recognition that some students will 
need to take five-years to master the skills and earn the credits 
necessary to graduate with a diploma is critical to the survival of 
alternative high schools that create safe havens for our most at-risk 
students so that they, too, can graduate from high school and become 
fully participating and contributing adults in our society.
    I invite you to visit Meridian High School for a firsthand look at 
our programs and the students we serve.
                                 ______
                                 

       Prepared Statement of Dr. Mary K. Lose, Oakland University

    Chairman Kildee and members of the Subcommittee, I would first like 
to thank you for the opportunity to submit this written testimony for 
the record on behalf of the 24,724 first grade children who comprise 
the most at-risk literacy learners (the bottom performing 20%) in our 
Michigan schools. These are the children that our state cannot afford 
to `leave behind'. Within Michigan's 5th Congressional District, this 
includes 521 struggling first grade students in 32 elementary schools 
in 18 school districts. The majority of these schools are affiliated 
with the regional Reading Recovery Site in the Genesee Intermediate 
School District in Flint, Michigan.
    In 1972, I started teaching struggling middle school students who 
were placed in special education primarily because they could not read. 
Four years later I provided professional support and consultation in 
Learning Disabilities to administrators, teachers, and schools as a 
member of the Heartland Area Education Agency, one of 13 regional 
educational centers in Iowa that provide support to schools and that 
serve as a link between the Iowa Department of Education and local 
districts. Later, as a university professor I prepared teachers of 
struggling learners in Iowa and Indiana and now in Michigan as 
assistant professor and Director of the Reading Recovery Center of 
Michigan at Oakland University.
    Learning to read and write in the early grades is critical to a 
child's future and equally importantly critical to our nation's future. 
Reading Recovery has a strong track record of preventing literacy 
failure for many first graders. Results support the investment of 
resources for this prevention effort. Yet, Michigan is still far from 
providing Reading Recovery to all the children who need it. Districts 
that want to implement Reading Recovery have been hard pressed to do so 
in this challenging economy. Many of the participating districts in 
Michigan experience the impact of low coverage. Four out of five 
students in Michigan who need Reading Recovery do not have access to 
the intervention. Ideally, 20 % of our state's first graders should 
have access to high quality one-to-one instruction by a highly-skilled, 
professionally-developed teacher. Michigan cannot afford to not invest 
early in its youngest citizens.
    Children can succeed if we provide them the instruction and 
opportunities they require for success. To deny children what is 
required for their success fails them now and penalizes them for a 
lifetime. Those who are concerned about leaving no child behind could 
achieve greater equity by investing early in our children, providing 
the Reading Recovery intervention to the 24,724 Michigan first graders 
and the hundreds of thousands of our nation's children that could 
benefit from Reading Recovery.
    Reading Recovery is a short-term early literacy intervention 
designed for first grade children having extreme difficulty learning to 
read and write. Children meet individually with a highly skilled 
certified teacher for 30 minutes daily for an average of 12-20 weeks. 
Most children served by Reading Recovery make accelerated progress and 
meet grade level expectations and continue learning in dependently in 
the classroom. Reading Recovery also serves as a pre-referral program 
for a small number of children who may need specialized longer-term 
support.
    The Reading Recovery Center of Michigan at Oakland University is a 
not-for-profit collaborative effort among schools, districts and the 
university. Within the university's School of Education and Human 
Services, the Center conducts research and evaluation, provides 
technical support to schools and prepares and professionally develops 
26 teacher leaders who support 591 teachers working in Reading Recovery 
in 138 school districts and 437 schools throughout Michigan. During the 
2005-2006 school year Reading Recovery teachers provided early literacy 
intervention to 5,190 of Michigan's most at-risk learners and applied 
their expertise while working with 37,864 additional students in their 
other roles as classroom teacher, Title I/reading teacher, English 
Language teacher, special educator, literacy coach and staff developer. 
Since 1991, over 78,200 children have become readers and writers 
because of Reading Recovery.
    In my 35 year career in education, it has been my passion to 
support the learning of the children who due to multiple risk factors 
such as poverty, language barriers, and learning challenges are the 
most vulnerable to failure in our schools. These are the children most 
in need of the skilled support of teachers, provided early, not later, 
before these children habituate failure and fall hopelessly behind 
their peers.
    The No Child Left Behind Act is designed to support schools to help 
these children. Based on my observation, the NCLB Act has not entirely 
met its promise to children, their parents, teachers, and schools. 
Therefore, I respectfully request that the Committee give careful 
consider to the following recommendations to benefit children in 
Michigan and children throughout the United States so that no child 
will in fact be `left behind'.
    1. Assure early intervention for struggling students by retaining 
the ``safety net'' language in schoolwide Title I programs and 
recognize accelerated learning as crucial for closing the reading 
achievement gap.
    Even with the most effective schoolwide program and/or classroom 
instruction, some students will require additional assistance. Juel's 
1988 longitudinal study found that the probability that a poor reader 
at the end of Grade 1 would remain a poor reader at the end of Grade 4 
was very high (.88) (Journal of Educational Psychology, 80(4), 437-
447). Early intervention to accelerate learning is essential to close 
the reading achievement gap. The recent enactment of early intervening 
services (EIS) and response to intervention (RTI) under the IDEA 
reauthorization of 2004 further emphasizes the necessity of providing 
targeted assistance to students who need it.
    2. Restore one-to-one instruction in the Reading First program.
    Even the most skilled classroom teacher will be hard pressed to 
meet the diverse learning needs of all children in the classroom and in 
small group instructional settings. The Conference Committee Report for 
PL 107-110 states unequivocally that ``The Conferees intend State 
educational agencies and local educational agencies to be able to 
select from a wide variety of quality programs and interventions to 
fund under Reading First and Early Reading First, including small group 
and one-to-one instruction, so long as those programs are based in 
research meeting the criteria in the definition of scientifically based 
reading research.'' (Conference Report to Accompany HR 1, Government 
Printing Office, printed December 13, 2001, p. 768.).
    3. Expand involvement by education, literacy and research experts 
on Reading First peer review panels.
    The Office of Inspector General found in September 2006 that the 
U.S. Department of Education took action with respect to the expert 
review panel process for Reading First that was contrary to the 
balanced panel composition envisioned by Congress. Further, the OIG 
found that the selection of the expert review panel was not in 
compliance with the law because the Department failed to ensure that 
each State application was reviewed by a properly constituted panel. 
The Reading Recovery Council of North America proposes a broadened 
representation on the peer review panel and benchmarks expertise in 
research to the What Works Clearinghouse evidence standards.
    4. Update the definition of ``essential components of reading 
instruction'' to reflect recent data of effectiveness.
    The requirement that instruction be ``explicit and systematic'' is 
based on a conclusion from the National Reading Panel (NRP) that was 
later discredited by a follow-up meta-analysis. Camilli et al. found 
that while systematic instruction in phonics provided statistically 
significant improvement, it was less effective than published in the 
NRP report and also was less effective than instruction provided by an 
individual tutor (Education Policy Analysis Archives, Vol. 11, No. 5, 
May 8, 2003, ISSN 1068-2341).
    5. Amend the definition of ``scientifically-based reading 
research'' to reflect the contributions of the United States Department 
of Education What Works Clearinghouse toward identifying high quality 
research.
    6. Establish and maintain achievement standards, but ensure 
accountability through assessments that measure individual children's 
growth over time in literacy, not a one-size-fits all standard for all 
learners.
    Thank you again for this opportunity. I would be happy to provide 
you or your staff additional information about Reading Recovery in 
Michigan.
                                 ______
                                 

     Prepared Statement of Linda Schmidt, Policy Adviser, Michigan 
                      Department of Human Services

    Chairman Kildee and Members of the Subcommittee: Thank you for the 
opportunity to provide testimony regarding the reauthorization of the 
Elementary and Secondary Education Act and No Child Left Behind.
    The mission of the Michigan Department of Human Services (MDHS) is 
to assist children, families and vulnerable adults to be safe, stable 
and self-supporting.
    In 2003, Governor Granholm created a visionary strategy for linking 
two of the state's most pressing issues; the need to increase 
efficiency and access to services through improved service delivery 
integration across state departments, and the need for innovative 
strategies to address poverty and its compounding effects on children 
and families. One project that grew out of this vision is the Family 
Resource Center project.
    Family Resource Centers (FRCs) are service centers where MDHS staff 
and other public and private human service providers are stationed 
within schools. Schools are selected based on the concentration of need 
experienced by families within the school's attendance area, and the 
school's AYP status. Public services offered through the county MDHS 
office are provided directly on-site at the school. At most FRC sites, 
MDHS case managers see more than half of the parents with children 
enrolled in the school on a regular basis because they are receiving 
some form of public assistance. Often, in areas of the state including 
Detroit, Highland Park, Flint, Saginaw, and Muskegon Heights, the 
proportion of families with regular contact with MDHS is over 90%. This 
results in regular contact between parents receiving assistance and the 
school without changing or adding any programs. As families come in to 
see their public assistance/ MDHS worker for routine case management or 
to address an emerging need, other issues can be addressed at the same 
time. To accomplish this MDHS-FRC leaders partner with school 
principals, social workers, and other school staff, along with 
community-based programs to form collaborative teams. These teams work 
together to increase service delivery integration between service 
providers within the school sites.
    MDHS-FRC leaders partner with school principals and other staff to 
make the most of regular contacts with families. Additionally, this 
ongoing relationship between families in need and MDHS translates into 
opportunities for the FRC partners to identify emerging trends and 
design specific strategies to address needs. Michigan has determined 
that this process has resulted in increased participation and improved 
outcomes for families in areas of service ranging from nutrition 
education and health promotion activities to home ownership 
initiatives.
    As FRC leadership develops, even more proactive strategies are 
identified. For example, the FRC at Durant Tuuri Mott School here in 
Flint identified the high rate of asthma among students as as 
significant barrier to attendance and academic achievement. FRC leaders 
designed a system to ensure that children who needed asthma medications 
were able to reliably receive it from health staff on site. This and 
other strategies developed by FRC leaders contributed to the school 
attendance rate soaring to 90%. Other centers have initiated parent 
workshops to train parents to support their children throughout the 
assessment process required by NCLB, including assisting parents in 
taking sample tests themselves so that they can help their children. 
The potential impact of creative strategies such as these is enormous, 
not just for children's academic success but for whole families in 
which parents may have resisted identifying barriers to academic 
excellence for themselves as well as their children.
    While the impact of FRCs on parental academic achievement has not 
been quantified, anecdotal evidence reveals many parents whose link to 
MDHS resulted in improved relationships with school staff and increased 
parental involvement. These relationships often serve as foundations 
for parents to address long-standing barriers to their own 
achievements. Parents who have resisted going back to school have done 
so after experiencing this process. Especially in middle schools, FRC 
staff often finds MDHS families in which the parents have little more 
education than their children, and then subsequently design activities 
to address both student and parent achievement. These activities 
include career fairs and high school information days where students 
and parents get information regarding high school completion and/or 
community college enrollment. In addition, FRC leaders engage corporate 
sponsors in their communities to support parents and children who 
challenge themselves to take the next step toward academic excellence 
by providing prizes for participation and achievement.
    In addition to leveraging resources to increase efficiency and 
create proactive strategies that address shared goals between 
departments, FRCs have a significant and positive impact on schools' 
ability to make AYP as required by NCLB. In 2005-06, schools that had 
previously failed to make AYP and which housed an FRC were more likely 
to make AYP enough years in a row to get out of AYP phases altogether 
(40% of FRC-linked schools who had previously been placed on the 
priority schools list for not making AYP subsequently made AYP enough 
years in a row to get off the list of priority schools compared to 10% 
of schools without a FRC).
    A NCLB reauthorization that is accompanied by more realistic levels 
of funding for school districts would greatly enhance the ability of 
districts to partner with MDHS to create Family Resource Centers. 
Currently, the process of starting a new center necessitates each local 
community going hat-in-hand to corporations and private funders to 
solicit backing needed to create a center. While in theory this may be 
a successful way to engage communities in school improvement, in 
practice it makes it nearly impossible to establish FRCs in the 
communities in which they are most needed. Increased funding for NCLB, 
especially Title I funds for districts, are essential. In addition, if 
state departments of education received increased funding targeted 
toward creating integrated service delivery systems within schools most 
in need, such as that included in Title X, Coordinated Services 
Projects, of the Improving America's Schools Act of 1994, there would 
be a reduction in the duplication of effort each new set of potential 
FRC partners experience as they work together toward creating a new 
site. Material assistance and technical support from the state 
departments of education could easily result in FRCs or other public 
service integration projects. Based on Michigan's experience, the 
number of schools ready to form partnerships to jointly address poverty 
reduction and education goals far outnumbers the amount of technical 
and material assistance available.
    Increased funding of NCLB, including funding set aside for the 
creation of integrated service delivery systems, would greatly enhance 
states' efforts to meet NCLB goals, and result in more efficient use of 
public resources aimed at assisting families in need.
                                 ______
                                 

 Prepared Statement of Carol Shanahan, Teacher, Vern Van Y Elementary 
                                 School

    Chairman Kildee, I am Carol Shanahan, a teacher at Vern Van Y 
Elementary School in Burton, MI, and I request that the following 
testimony be included in the record of the April 12, 2007 Subcommittee 
hearing held in Flint, Michigan.
    As a second grade teacher and a Reading Recovery teacher, I know 
that some children will not reach their potential if they do not have 
access to an early intervention program. Many children need to be 
serviced in literacy in the early grades in order to be successful 
learners. NCLB should require that all K-2 teachers receive intensive 
quality literacy training in college such as I received and continue to 
receive from Reading Recovery. Literacy training for teachers needs to 
be ongoing. It should require that all children struggling with 
literacy get the support they need as soon as possible.
    Lower class size is so important in the early grades, especially K-
1. It is impossible to meet the needs of our students when you cannot 
give them the individual help they need. The larger the class size the 
harder it is to meet the demands made by NCLB and more importantly the 
needs of the students. Every time a student is added to my class list I 
spend more time on class management and paperwork, which takes away 
from planning and instruction. Do we want to spend the money on 
education or on prisons? We all know that many people in the prison 
population are unable to read. Which ends up costing society more in 
the long run?
                                 ______
                                 

 Prepared Statement of Vickie Turner, Instructor of Future Educators, 
                        Ferris State University

    I would like to thank you for the opportunity of adding to your 
committee testimonies regarding NCLB. I was at the Hearing held in 
Flint Michigan on April 12, 2007 chaired by Mr. Kildee for `No Child 
Left Behind'
    My name is Vickie Turner. I have two Masters Degrees in Education. 
I am a retired Special Education Teacher of 30 years and a college 
instructor of future educators for Ferris State University, and Eastern 
Michigan University.
    A standardized test driven curriculum or educational system will 
never be successful in showing what our students are learning. A 
standardized test driven curriculum only celebrates what the students 
do not know. We are sadly becoming a nation wrapped up in how we look 
on paper, instead of, how well we react to, interact with and process 
information.
    These testing requirements under NCLB take away valuable classroom 
teaching time and devour our curriculums. Teachers must teach to a test 
rather than to what our students need from curriculums.
    We are losing students because schools are no longer teaching and 
challenging the young minds to investigate, work with and absorb 
knowledge. We are merely teaching to rote learning. No wonder our 
students are dropping out or sleeping through their education. Students 
are told to memorize this and that for the test but are never given the 
opportunity any more to work with their knowledge to make it permanent. 
We are graduating students who are not near the educational standards 
that once were in place. We have become a testing nation instead of a 
nation of learners and innovators.
    Our policy makers need to look at NCLB through the eyes of 
educators and students rather than a purely political view. These 
students are living breathing creative beings, not robots who dictate 
back information given them. By mandating NCLB at a national level, 
dictating what that means from a national level and then judging the 
results from a national level does not do justice to the quality of 
education we have district by district. National tested standards 
cannot take into account prior knowledge, environmental differences, 
cultural differences, transient populations, regional educational needs 
etc. Why would we pigeon hole and limit our educational system by only 
teaching and addressing one elite group. That is what a national 
standardized testing system does.
    NCLB is killing our educational system. Our talented young 
educators are leaving the field of education because it is a no win 
situation and they are frustrated. Our experienced master teachers are 
retiring earlier because they are being told that after all these years 
they either need more schooling to meet requirements or that their job 
depends on getting their failing students to suddenly spring to life 
and succeed, all while being handcuffed by teaching to a test that 
bores the life out of education.

          ``The educational practices we had in place in this country 
        have produced educated people who have created and maintained 
        the US's status as the #1 wealthiest and most powerful nation 
        in the world for the greater part of the last century. We are 
        the youngest 1st world nation * * * that is also the wealthiest 
        and the most powerful. How is this legislation going to help us 
        improve if all it is meant to do is LOWER the standard so 
        everyone is seen as ``proficient''? (and it would LOWER the 
        standard because someone with an IQ of 80 is mentally incapable 
        of doing algebra, which is the lowest high school math course 
        tested as an AYP course.)''
                                              Shari Turner,
                               High School Teacher, Huntingtown MD.

In conclusion
    NCLB is forcing us as a nation to exclude the individual student in 
favor of the majority. It makes us only look toward one goal and forces 
us to use one path to show we achieved that goal. We as a nation have 
always prided ourselves on our diversity yet now we are being made to 
turn our backs on the creativity that makes education successful. How 
many Einsteins are we losing because they don't fit into the mold our 
national educational system has forced us to forge?
    In Theory No Child should ever be left behind. In practice, because 
of NCLB, we are leaving behind more than our children. We are leaving 
behind a successful and inviting educational system. There are ways of 
checking educational standards child by child to ensure our children 
are learning at their own rate. Children mature and learn at different 
rates why can't we allow that, as long as, we keep them moving forward 
in the learning process.
    Thank you for your time and attention. If there is ever any way I 
help this committee in the future please feel free to call on me.
    Here is something that tells so well how America feels about NCLB. 
It is from the internet and I do not know the author, but it says 
volumes.
No Child Left Behind-The Basketball Version
    1. All teams must advance to the Sweet 16, and all will win the 
championship. If a team does not win the championship, they will be on 
probation until they are the champions and coaches will be held 
accountable.
    2. All kids will be expected to have the same basketball skills at 
the same time and in the same conditions. No exceptions will be made 
for interest in basketball, a desire to perform athletically, or 
genetic abilities or disabilities. All kids will play basketball at a 
proficient level.
    3. Talented players will be asked to practice on their own, without 
instructions. This is because the coaches will be using all their 
instructional time with the athletes who aren't interested in 
basketball, have limited athletic ability or whose parents don't like 
basketball.
    4. Games will be played year round, but statistics will only be 
kept in the 4th, 8th, and 11th games.
    5. This will create a New Age of sports where every school is 
expected to have the same level of talent and all teams will reach the 
same minimal goals. If no child gets ahead, then no child will be left 
behind.
                                 ______
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
    [Whereupon, at 1:02 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
